         Treasury
   Inspector General for
     Tax Administration



Semiannual Report
  to Congress


    April 1, 2001 through September 30, 2001
Treasury Inspector General
for Tax Administration

Vision Statement
We are a respected member of the government community:


 •   Independent, objective and professional in the conduct of our mission.


 •   Dedicated and innovative professionals who take pride in promoting fair
     tax administration and good government.


 •   Proud of our past and focused on our future.
                                     DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20220


INSPECTOR GENERAL
      for TAX
  ADMINISTRATION

                                                  October 30, 2001




     The Honorable Paul H. O’Neill
     Secretary of the Treasury
     Washington, D.C. 20220

     Dear Mr. Secretary:

     I am pleased to submit to you the Treasury Inspector General for Tax Administration’s (TIGTA)
     Semiannual Report to Congress for the reporting period April 1, 2001 through September 30, 2001.
     TIGTA would like to express its sympathy to those affected by the tragic events of September 11, 2001.
     While these are trying times for all of us, I am especially proud of the TIGTA staff who on, the day of the
     attacks, immediately went into action to provide assistance to those in need. I would like to commend
     their dedication and hard work. We were also very thankful that all of our TIGTA employees who worked
     at the World Trade Center got home safely and without serious injury.
     TIGTA’s Office of Investigations is providing assistance to the law enforcement community in investigating
     the attacks at the World Trade Center and the Pentagon. Our efforts in this area include:
     •   Providing full-time coverage to both the Federal Bureau of Investigation’s (FBI) central command post,
         and the FBI’s Joint Terrorism Task Force.
     •   Providing various types of information available through Internal Revenue Services’ (IRS) records.
         This information has been extremely useful in identifying hijackers and their associates, as well as
         tracking financial information related to the attacks.
     •   Supporting the Federal Aviation Administration’s Federal Air Marshal Program.
     Also, in conjunction with the Department of Housing and Urban Development, the Office of Investigations
     is actively coordinating a joint effort by the President’s Council on Integrity and Efficiency and Executive
     Council on Integrity and Efficiency to provide long-term support to this investigation.
     We are proud to be participating in these efforts while continuing our work overseeing the nation’s tax
     administration. Our audit and investigative accomplishments for this six-month period are highlighted in
     the Executive Summary.
     I look forward to continuing to work together with you, Congress and IRS officials to help the Agency
     address the challenges it faces in Fiscal Year 2002.


                                                           Sincerely,




                                                           David C. Williams
                                                           Inspector General

     Enclosure
                                                                            Table of Contents
                                                                                                                                          Page

Executive Summary ......................................................................................................................... 3

Major Issues Facing the Internal Revenue Service ...................................................................... 7

Office of Audit ................................................................................................................................ 11

Office of Investigations ................................................................................................................. 23


Appendices
Appendix I           Office of Audit’s Statistical Reports
                     Audit Reports with Questioned Costs ...................................................................... 31
                     Report Recommendations That Funds Be Put to Better Use .................................. 32
                     Reports with Additional Quantifiable Impact on Tax Administration ......................... 33


Appendix II          Office of Investigation’s Statistical Reports
                     Investigative Results April 1, 2002 - September 30, 2001 ....................................... 35
                           Investigations Opened and Closed..................................................................... 35
                           Financial Accomplishments ................................................................................ 35
                           Status of Closed Criminal Investigations ............................................................ 36
                           Criminal Dispositions .......................................................................................... 36
                           Administrative Status and Disposition on Closed Treasury Inspector
                             General for Tax Administration (TIGTA) Investigations ................................. 37
                           Complaints/Allegations Received by TIGTA ....................................................... 38
                           Status of Complaints/Allegations Received by TIGTA ........................................ 38
                     Allegations of Misconduct Against IRS Employees .................................................. 39
                           Allegations of Employee Misconduct Investigated
                               by IRS Management ..................................................................................... 39
                           Disposition of Employee Misconduct Cases Investigated
                              by IRS Management ..................................................................................... 40
                           IRS Summary of Substantiated §1203 Allegation .............................................. 41




                                                                                                                             Table of Contents 1
Table of Contents
(Continued)
                                                                                                                                   Page

Appendix III Statistical Reports - Others
                    Audit Reports With Significant Unimplemented Corrective Actions ......................... 43
                    Statistical Reports - Others (Access to Information; Audit Reports
                       Issued in Prior Reporting Period with No Management
                       Response; Revised Management Decisions; Disputed Audit
                       Recommendations; Review of Legislation and Regulations) ............................. 59


Appendix IV Audit Report Listing (April 1, 2001 - September 30, 2001) ...................................... 61


Appendix V          Section 1203 Standards ........................................................................................... 69


Appendix VI Statutory TIGTA Reporting Requirements ................................................................ 71


Appendix VII Government Performance and Results Act Audits ................................................... 77


Appendix VIII Criminal Investigation Audits .................................................................................... 79


Appendix IX Acronyms .................................................................................................................. 81


Appendix X          Organizational Chart ................................................................................................ 83




2 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                                 Executive Summary
The Office of the Treasury Inspector General       Authorities
for Tax Administration (TIGTA) provides
independent oversight of Internal Revenue          TIGTA has all the authorities granted under
Service (IRS) activities, the IRS Oversight        the Inspector General Act of 1978.1 TIGTA
Board, and the IRS Office of Chief Counsel.        also has access to tax information in the
TIGTA is organizationally placed within the        performance of its responsibilities and has
Department of Treasury (Treasury), but is          the obligation to report potential criminal
independent of the Department and all other        violations directly to the Department of
Treasury offices. TIGTA’s focus is devoted to      Justice. The Inspector General (IG) and the
all aspects of work related to tax                 Commissioner of IRS have established
administration.                                    policies and procedures delineating
TIGTA’s audit and investigative activities are     responsibilities to investigate potential
designed to:                                       criminal offenses under the internal revenue
                                                   laws.
•   Promote economy, efficiency, and
    effectiveness in administering the Nation’s    In addition, the IRS Restructuring and Reform
    tax system.                                    Act of 1998 2 (RRA 98) amended the
                                                   Inspector General Act of 1978 to give TIGTA
•   Detect and deter fraud and abuse in IRS        statutory authority to carry firearms and
    programs and operations.                       execute the provisions of the Internal
•   Protect IRS against external attempts to       Revenue Code (I.R.C.) Section 7608(b)(2).
    corrupt or threaten its employees.             These provisions include law enforcement
                                                   authority to execute and serve search
Other responsibilities include:                    warrants, serve subpoenas, and make
                                                   arrests.
•   Investigating allegations of misconduct by
    IRS employees.
•   Reviewing and making recommendations
                                                   TIGTA’s Accomplishments
    about existing and proposed legislation and
    regulations related to IRS and TIGTA
                                                   TIGTA was highly productive during this six-
    programs and operations.
                                                   month reporting period. Some of the
•   Recommending actions to resolve fraud,         highlights include:
    abuses, and deficiencies in IRS programs
    and operations.
                                                   •    Issuing 126 audit reports with cost savings
                                                        or funds put to better use totaling over
•   Informing the Secretary of the Treasury and         $13 billion,3 with an additional $13.3 billion
    Congress of problems and progress made              in increased revenue and protected
    to resolve them.
The Offices of Audit (OA) and Investigations       1
                                                       Pub. L. No. 95-452 Stat. 1101, as amended, at 5 U.S.C.
(OI) carry out these duties and are supported          App. 3 (1994 & Supp. II 1996).
in their efforts by the Offices of Chief           2
                                                       Pub. L. No. 105-206, 112 Stat. 685.
Counsel, Information Technology, and               3
                                                       Audit report, Reference No. 2001-30-148, contains an
Management Services.                                   estimated five-year benefit of $13 billion that represents the
                                                       amount of interest that could be avoided if all overpayments
                                                       are timely refunded by IRS within 45 days. The actual
                                                       interest savings would be reduced by an indeterminable
                                                       amount for any refunds that are not timely processed (see
                                                       Appendix I, page 31).


                                                                                              Executive Summary 3
     revenue.4 Audit recommendations improved
     tax administration for almost 14.5 million
     taxpaying entities. These issues primarily
     involved taxpayer rights and entitlements,
     burden and privacy, and security.
•    Receiving 3,902 complaints of alleged
     criminal wrongdoing and/or
     administrative misconduct, of which
     1,600 warranted further investigation. In
     addition, 2,322 investigations were closed.
     The investigations included assault,
     bribery, theft, and fraud. Investigative
     recoveries totaled approximately
     $8.1 million.
                                                                  Photograph of the collapsed 6 World Trade Center
•    Conducting integrity awareness                               building that TIGTA had occupied in New York City
     presentations for over 23,000 individuals.                   before the terrorist attack on September 11, 2001.
     IRS employees comprised 89 percent of
     these individuals. These presentations
     heighten integrity awareness and have a                      coordinating a joint President’s Council on
     potential deterrent effect on fraud and                      Integrity and Efficiency/ Executive Council on
     misconduct.                                                  Integrity and Efficiency effort to provide long-
                                                                  term investigative support to this
                                                                  investigation. TIGTA and HUD will oversee
                                                                  up to 80 special agents from multiple IG
Investigative Highlights                                          offices to augment investigative personnel
                                                                  currently supporting the investigation.
In response to the tragic events of
September 11, 2001, TIGTA’s Office of                             OI also continues with its primary mission of
Investigations in New York responded                              detecting and deterring fraud and other
immediately, providing assistance to those                        misconduct within IRS programs. Highlights
injured in the aftermath of the destruction and                   of the most significant investigations during
chaos at the World Trade Center. Within a                         this six-month reporting period include:
day, TIGTA had established equipment and                          •    An individual engaged in the theft of mail,
supplies needed to reestablish our displaced                           stalking, trespassing, and Internet
New York office, which was one of the                                  searches for the purpose of identifying the
buildings that collapsed that day (see picture).                       addresses and vehicles belonging to
TIGTA also established “linked                                         Federal law enforcement agents who were
communication” for the U.S. Secret Service                             involved in the individual’s prosecution for
and U.S. Customs Service, whose                                        previous Federal crimes.
communication had been completely severed
by the events. TIGTA subsequently provided                        •    An individual was convicted of two counts
other law enforcement equipment to those                               of interstate stalking related to the stalking
affected agencies.                                                     of a TIGTA special agent. This individual is
                                                                       the admitted author of Assassination
OI continues to provide communications and                             Politics, an essay advocating the
direct investigative assistance in support of                          assassination of government employees.
the World Trade Center terrorist investigation.
For instance, in conjunction with the                             •    A joint investigation conducted by TIGTA,
Department of Housing and Urban                                        the U.S. Secret Service, and the Federal
Development (HUD), OI is actively                                      Bureau of Investigation (FBI) successfully
4
    See Appendix I, page 34.


4 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
    identified the source of Internet threats        • Business Systems Modernization - IRS has
    directed at the President, a TIGTA special            made notable progress in modernizing its
    agent, and other law enforcement officials.           technology systems. However, IRS is still
                                                          struggling with developing and integrating
•   A 30-year IRS employee was arrested by                the discipline and repeatable processes
    TIGTA and charged with receiving bribes               needed to effectively and efficiently
    totaling nearly $19,000 from an individual            modernize its technology.
    on behalf of the individual’s business entity
    in return for not collecting over one-half       • Addressing the Impact of the Global
    million dollars in delinquent tax. The case           Economy on Tax Administration - As
    was initiated as a result of a FBI                    taxpayers’ international transactions and
    investigation during which evidence alleged           operations increase, IRS is concerned
    the business individual had paid bribes to            about identifying and examining the issues
    an unnamed IRS employee.                              presenting the greatest risks. OA
                                                          conducted three reviews that addressed
•   An individual was sentenced to 46 months              these issues and concluded that, overall,
    imprisonment, 3 years probation, ordered              IRS needs to increase its focus on
    to pay nearly $4 million in restitution and           international compliance programs.
    $400 in special assessments for
    participation in an identity theft fraud ring.   • Criminal Investigation (CI) - OA reported
    The individual provided identification                that the CI function was not making a shift
    documents, including Social Security                  to investigate tax crimes as envisioned by
    numbers (SSN), to the ring that had                   the June 2001 Webster Report (an
    established bank accounts to deposit                  independent review of the Criminal
    stolen checks. The deposits included IRS              Investigation function).5
    refund checks and individuals’ tax
    remittances.                                     Details of these areas are included in the next
                                                     section, Major Issues Facing the IRS, see
    Synopses of these and other significant          pages 7 through 10. Synopses of additional
    investigative activities conducted during        significant audit activities conducted during this
    this reporting period can be located on          period can be found on pages 11 through 21.
    pages 23 through 30.

                                                     Assistance to Foreign Tax
Audit Highlights                                     Administrations
OA’s work addresses both major
                                                     On several occasions, TIGTA supported IRS
management issues facing IRS, as well as
                                                     in assisting foreign tax administrations. This
areas of concern for Congress, the IRS
                                                     assistance included detailing an individual to
Commissioner, and the IRS Oversight Board.
                                                     the Port of Spain, Trinidad and Tobago
Emphasis is also placed on the statutory
                                                     Ministry of Finance, making presentations to
coverage imposed by RRA 98. During this
                                                     government officials for El Salvador, providing
six-month reporting period, OA results
                                                     high-level technical support to Bulgaria’s tax
focused on the following areas:
                                                     collection agency, and conducting a review for
• Providing Security Over Information                the Inspector General of the Tax Revenue
    Systems - Highlights in this area include        Ministry in the country of Georgia.
    IRS making strides toward improving
    security over information systems,
    although, the level of security over these       5
                                                         Review of the Internal Revenue Service’s Criminal
    systems is not yet adequate.                         Investigation Division, also known as the Webster Report
                                                         (Reference No. 2001-10-100).




                                                                                              Executive Summary 5
                                 Major Issues Facing IRS

During this six-month reporting period, TIGTA          the adequacy of controls to prevent
continued to focus its efforts on conducting           hackers from intruding into IRS systems or
audit work to address IRS’ major                       networks, and on controls to detect those
management challenges. The following                   who try. Other audits have focused on
sections highlight TIGTA’s activities in some          controls inside IRS.
of these areas. Additional details of other
significant audit and other investigative              At the Internet gateways, which control
activities can be found on pages 11 through            external access into the IRS network,
30, and in the Appendices starting on                  firewalls and routers were not upgraded to
page 31. Information on statutory                      protect against commonly known
requirements can be found on page 69.                  weaknesses; configurations were weak;
                                                       changes to configurations were not
                                                       documented; activity logs were not
                                                       generated and reviewed; and sufficient
   Providing Security Over                             and capable staffing was not assigned to
   Information Systems                                 administer the firewalls. IRS still does not
                                                       have the capability to detect intrusions at
   IRS is a highly visible target for hackers          all entry points from the Internet.
   and disgruntled employees, considering              Internally, OA noted weaknesses with
   the amount and sensitivity of the data IRS          network operating system controls,
   is charged with protecting, and the amount          physical security, and access privileges.
   of revenue it collects. Access to the               Due to the interconnectivity of systems
   Internet and the linking of internal                within IRS, these weaknesses are
   computer systems have greatly increased             significant. Unauthorized persons gaining
   the risk of loss or theft.                          access to a computer in even the smallest
   IRS has made strides toward improving               post-of-duty can potentially access data in
   security over information systems. The              any of the computing centers. IRS still
   overall security environment of the large           does not routinely run or review activity
   processing centers has improved.                    logs on network servers to detect potential
   Mainframe computer operating system                 internal security breaches.
   controls are generally adequate and                 Over the years, IRS has not routinely
   significant progress has been made in               considered security when designing new
   preparing adequate disaster recovery                systems. In an audit of the security
   plans. IRS has also taken actions to                certification process in June 2000,6 OA
   protect its critical information systems.           noted that only 10 percent of IRS’
   During the last year, IRS has identified the        sensitive systems had been certified and
   critical assets, assessed the vulnerability         all but one of those had been certified
   of those assets, and requested funds to             after they had been implemented. IRS is
   improve the physical security of the                addressing this issue, but progress has
   assets.                                             been slow. As of May 2001, only 15 percent
   Despite IRS’ significant efforts and                of IRS’ sensitive systems had been
   accomplishments over the past few years,            certified.
   OA found that the overall level of security
                                                  6
   over IRS’ information systems is not yet           Certifying the Security of Internal Revenue Service
                                                      Computer Systems Is Still a Material Weakness,
   adequate. Several audits have focused on           (Reference No. 2000-20-092).


                                                             Major Issues Facing the Internal Revenue Service 7
    OA attributes many of the conditions                                 longer and cost more to develop than
    identified to:                                                       originally estimated. To date, IRS has
                                                                         spent or obligated over $500 million in
    •   A lack of clear accountability for security                      modernization funds. IRS plans to
        throughout IRS.                                                  deliver several projects with direct
    •   Insufficient knowledge and skills.                               taxpayer benefits in 2002; however,
                                                                         some of these projects will be installed
    •   Insufficient security awareness among                            later than planned. Other projects have
        managers and employees.                                          been scaled back in order to install
    In addition, OA has made                                             them.
    recommendations to correct for the
    weaknesses identified and IRS has                                  • Potential funding problems.   Because the
                                                                         projects have cost more than estimated,
    taken or planned actions to implement
                                                                         all modernization funds provided by
    them. A list of issued reports is listed in
    Appendix VI, page 71.                                                Congress have been spent or obligated.
                                                                         While IRS expects Congress to provide
                                                                         additional funds in 2002, some ongoing or
                                                                         planned projects may need to be
    Business Systems                                                     postponed or scaled back depending on
    Modernization                                                        the level of funding required.

    IRS has made notable progress in                                   • Inconsistencies in implementing key
    modernizing its technology systems. It                               systems development processes.
    installed an upgraded telephone                                      Project teams are having problems
    communications system that improves its                              implementing and following key
    ability to receive, route and respond to the                         processes, such as risk, configuration
    more than 150 million taxpayer telephone                             and contract management.
    calls it receives each year. The
    improvements include voice-activated                               • Business needs not always being well
    programs that recognize English or
                                                                         defined. Changing requirements during
                                                                         the development of projects have
    Spanish-speaking callers, and capabilities
                                                                         contributed to the delays and cost
    that more accurately route taxpayer calls
                                                                         overruns.
    to the most appropriate IRS resource. IRS
    also began installation of, and training for,
    a new software application that assists
                                                                       • Lack of clarity as to which systems
                                                                         development projects should be
    revenue agents in accurately computing                               classified as modernization projects.
    some of the most complex corporate tax                               The intent of Congress is to closely
    transactions.                                                        oversee and control funding for systems
    However, IRS is still struggling with                                modernization because IRS’ previous
    developing and integrating the discipline                            attempts to modernize are viewed as
    and repeatable processes needed to                                   having failed. However, IRS has not
    effectively and efficiently modernize its                            developed authoritative guidelines to
    technology. OA continues to monitor and                              determine which of its many systems
    report on the following areas that, at this                          development projects should be
    stage, pose potential barriers to the                                classified, managed, and separately
    success of Business Systems                                          funded as modernization projects. This
    Modernization:                                                       could result in certain projects not
                                                                         receiving the oversight intended or
    • Delays and cost overruns in delivering                             funds being used for purposes not
        tangible benefits to taxpayers. All of the                       intended or approved by Congress.
        modernization projects have taken

8 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
     OA recommended corrective actions to                               reviewed partnerships did not withhold
     strengthen the controls over these                                 about $758 million that may have been
     identified conditions. IRS management                              required on approximately $2.2 billion of
     generally agreed with the                                          effectively connected income.
     recommendations and has taken or
     planned actions to implement the                               •   Foreign Controlled Corporations (FCC)
     recommendations.                                                   comprise about 3 percent of the
                                                                        approximately 2.2 million corporation
                                                                        returns that were filed in the U.S. for Tax
                                                                        Year (TY) 1997. FCCs are incorporated
     Addressing the Impact                                              in the U.S., but controlled by a foreign
     of the Global Economy                                              entity or entities, directly or indirectly.
     on Tax Administration                                              OA reported that controls over the
     One of the major strategies of IRS’ Large                          identification and selection of FCCs for
     and Mid-Size Business (LMSB) Division is to                        examination need improvement.8 The
     build a tax administration to effectively                          LMSB Division’s referral control needs
     deal with globalization. As taxpayers’                             to ensure that all FCC returns selected
     international transactions and operations                          for examination are timely referred by
     increase, IRS is concerned about identifying                       domestic revenue agents to the
     and examining the issues presenting the                            International Examination so significant
     greatest risks. OA conducted three reviews                         issues involving hundreds of millions of
     that addressed several of these issues and                         dollars are not excluded from
     concluded, overall, that IRS needs to                              examination.
     increase its focus on international
     compliance programs. In addition, data                         •   Foreign persons are subject to a U.S.
                                                                        tax of 30 percent on U.S. source income
     quality problems were identified in the
                                                                        unless an income tax treaty establishes
     system that processes returns showing
                                                                        a lower rate. This type of income has
     foreign persons’ income information. The
                                                                        grown from $79 billion in TY 1990 to
     problems can potentially result in providing
                                                                        over $124 billion in TY 1998. OA
     inaccurate information to foreign treaty
                                                                        reported that IRS could improve the
     partners and/or for use in examinations.
                                                                        quality and use of information received
     Some of the issues identified by OA include:
                                                                        on income of foreign persons and better
                                                                        ensure their reporting compliance.9
     •   Between 1995 and 1998, the estimated
         number of United States (U.S.)
                                                                    OA recommended corrective actions to
         partnerships with foreign partners
                                                                    strengthen the controls over the conditions
         increased by over 63 percent. OA
                                                                    identified. IRS management generally
         reported that IRS could more effectively
                                                                    agreed with all but one of the
         monitor foreign partnerships that are
                                                                    recommendations reported. IRS
         required to withhold taxes for taxable
                                                                    management did not agree to extract the
         income connected with the conduct of a
                                                                    data from partnership returns and match
         trade or business in the United States.7
                                                                    withholding information as an interim
         Also, IRS management could better use
                                                                    measure. IRS management requested
         the information from partners’ tax returns
                                                                    further time to assess whether a
         and withholding information documents to
         identify their non-compliance. Over
         50 percent of a small sample of                       8
                                                                   Controls Over the Identification and Selection of Foreign
                                                                   Controlled Corporations for Examination Need
                                                                   Improvement (Reference No. 2001-30-119).
7
    Stronger Actions Are Needed to Ensure Partnerships         9
                                                                   Significant Efforts Have Been Made to Improve Information
    Withhold and Pay Millions of Dollars in Taxes on Foreign       Reporting for Foreign Persons, But Substantial Work
    Partners’ Income (Reference No. 2001-30-084).                  Remains (Reference No. 2001-30-181).

                                                                          Major Issues Facing the Internal Revenue Service 9
      systemic crosscheck of withholding                                Government
      credits could be established.
                                                                        Performance and
                                                                        Results Act of 1993 11
      Criminal Investigation                                            (GPRA)
      In July 1998, the IRS Commissioner                                During Fiscal Year (FY) 2000, OA
      appointed Judge William Webster to direct                         conducted eight GPRA-related reviews
      an independent review of the CI function.                         that included evaluations of IRS’
      Judge Webster assembled a task force to                           implementation of GPRA; 6 of the 11 IRS
      assess CI’s effectiveness in accomplishing                        customer satisfaction surveys; and IRS’
      its mission as IRS’ criminal law                                  Annual Program Performance Report
      enforcement arm. The task force                                   (APPR). In a consolidated report, OA
      determined that CI had drifted from its                           found that IRS did not have a centralized
      primary mission of investigating tax crimes                       process to ensure that all of the
      affecting tax compliance and emphasized                           requirements of GPRA were achieved and
      the need to refocus CI resources to                               maintained.12
      investigate tax-related crimes.
                                                                        Additionally, the individual operating units
      OA reported that CI was not making the shift                      did not adequately administer the
      to investigate tax crimes as envisioned by                        Customer Satisfaction Survey process,
      the June 2001 Webster Report and was not                          and the process for completing IRS’ APPR
      operating within the framework of a current                       did not provide management adequate
      functional compliance strategy.10 In addition,                    time to assess performance. OA
      CI’s practices did not provide an effective                       recommended that IRS management
      means for measuring the success of shifting                       consider centralizing GPRA oversight;
      resources to legal source tax violations.                         better administer the Customer
      Also, OA reported that the indicators used                        Satisfaction Surveys and qualify the data
      by CI management did not show conclusive                          as needed; and improve the APPR
      evidence that resources were shifted to                           process.
      investigate more legal source tax
                                                                        IRS management generally agreed with
      violations. OA further concluded that CI did
                                                                        the recommendations contained in the
      not conduct a workload analysis to
                                                                        eight reports and has taken several steps
      determine the optimal number, placement,
                                                                        to address these concerns. The IRS
      and size of field groups.
                                                                        Commissioner designated the Deputy
      OA recommended that CI develop and                                Commissioner and the Chief Financial
      communicate a detailed compliance                                 Officer as responsible for the macro-level
      strategy that will ensure resources are                           GPRA processes and the operating unit
      being allocated to investigate more legal                         executives as responsible for
      source tax violations; establish an effective                     implementing GPRA in their respective
      process to assess the progress of                                 areas. IRS is planning to qualify some
      program initiatives; and develop a                                data and has made changes to its
      methodology to determine where                                    performance management process to help
      resources should be allocated. IRS                                better define and report on measures.
      management agreed with the
      recommendations and is taking
      appropriate corrective action.                              11
                                                                       Pub. L. No. 103-62, 107 Stat . 285.
                                                                  12
                                                                       Management Advisory Report: The Internal Revenue Service’s
10
     Review of the Effectiveness of Criminal Investigation’s           Implementation of the GPRA During Fiscal Year 2000
     Strategic Planning Process (Reference No. 2001-10-098).           (Reference No. 2001-10-085).



10 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                                             Office of Audit

Introduction                                      Significant Audit Results
OA identifies opportunities to improve            OA issued 126 audit reports during this
administration of the Nation’s tax laws by        reporting period (see Appendix IV,
conducting comprehensive, independent             pages 61 - 68). Results of the most
performance and financial audits of IRS           significant reviews are discussed in the
programs and operations to:                       following sections.
•   Assess efficiency, economy, effectiveness,
    and program accomplishments.
                                                        Headquarters Operations
•   Ensure compliance with applicable laws
                                                        and Exempt Organizations
    and regulations.
•   Prevent, detect, and deter fraud, waste,            The Headquarters Operations and Exempt
    and abuse.                                          Organizations Programs Unit has primary
                                                        responsibility for the performance of
                                                        statutory audits imposed by RRA 98. The
                                                        Unit also covers the following IRS program
The Audit Program                                       areas: Tax Exempt and Government
                                                        Entities (TE/GE), Criminal Investigations,
OA developed a comprehensive audit                      Headquarters Operations, and Agency-
program to assist IRS in meeting its                    Wide Shared Services. Audit highlights in
challenges faced in FY 2001. It helped IRS              this area include:
assure tax administration programs were
efficient and effective, and minimized fraud,
waste, and abuse. Major management
issues, as well as specific areas of concern to         Improvements Can Be Made to
Congress and the IRS Commissioner, were                 the Internal Revenue Service’s
also addressed.                                         Federal Financial Management
                                                        Improvement Act Remediation
OA’s audit work was organized around IRS’               Plan Process
core business activities: Headquarters
Operations and Exempt Organizations; Small              (Reference No. 2001-10-093)
Business and Corporate Programs; Wage and
Investment Income; and Information Systems.             IRS has made significant improvements
Emphasis was also placed on the statutory               with its remediation plan required by the
coverage imposed by RRA 98, as well as on               Federal Financial Management
other statutory authorities and standards               Improvement Act of 1996 (FFMIA).13 An
involving computer systems and financial                OA follow-up of previously reported
management.                                             findings showed that all weaknesses
                                                        identified by the General Accounting
                                                        Office during its financial statement audits
                                                        through FY 2000 were included in IRS’
                                                        remediation plan, including intermediate
                                                        target dates for all remedial actions.

                                                  13
                                                       31 U.S.C. §§ 1105-1106, 1113 and 3512 (1994).


                                                                                      TIGTA’s Office of Audit 11
    However, IRS’ remediation plan through                              OA recommended that IRS management
    September 30, 2000 continued to not fully                           establish procedures to routinely extract
    comply with FFMIA requirements since                                and compile prior examination results to
    resource commitments were not identified                            identify patterns of noncompliance and to
    for all remedial actions. Also, IRS was not                         use this data to develop and monitor the
    performing independent verifications of                             workplan. In addition, the staff should
    implemented remedial actions, and was                               establish procedures to ensure coverage
    not providing sufficient explanations for                           in Casework project codes where there is
    why there were revised remedial action                              a higher potential for noncompliance.
    intermediate target dates.
                                                                        IRS management agreed with the
    OA recommended that the Chief Financial                             recommendations and is taking
    Officer, in consultation with responsible IRS                       appropriate corrective action.
    organizational officials, should take an active
    role in identifying resource needs for all
    remediation plan actions; independently                             Compliance With Certain
    verifying and testing completed remedial                            Taxpayer Rights Provisions
    actions; and verifying the reasonableness of                        Contained in the Internal
    revised remedial action intermediate target
                                                                        Revenue Service Restructuring
    dates, including accomplishment dates for
    remedial actions that have intermediate
                                                                        and Reform Act of 1998 Could
    target dates in subsequent fiscal years.                            Be Improved
                                                                        (Reference No. 2001-10-147)
    IRS management agreed with the
    recommendations and is taking                                       OA reviewed 18 of 71 provisions that protect
    appropriate corrective action.                                      taxpayer rights contained in RRA 98 to
                                                                        determine IRS’ level of compliance with
                                                                        these provisions (see Table 1). IRS needed
    The Exempt Organizations                                            to improve its compliance with some of the
    Function’s Examination                                              RRA 98 provisions — notice of lien; innocent
    Workplan Can Be Improved to                                         spouse relief; prohibition on Illegal Tax
    Increase Its Effectiveness                                          Protester designations; and restrictions on
                                                                        the use of enforcement statistics.
    (Reference No. 2001-10-177)
    The Exempt Organizations (EO)
    Function’s field examination program                                Table 1. Results of Audit Review of 18
    identifies and corrects noncompliance                                        RRA 98 Provisions
    among the 1.5 million exempt
    organizations that control assets of over                                                                                  Number of
                                                                        Status                                                 Provisions
    $2 trillion. OA reported that EO
    Examination management had not                                      Full compliance ............................................ 3
    considered examination results, such as                             Additional corrective
    no change rates, when developing and                                  actions taken to
    monitoring the workplan. Additionally, the                            increase compliance ................................ 7
    EO Examination’s work planning practices
                                                                        Extension of
    did not ensure that the Casework category                              implementation
    of examinations focused on areas with a                                deadline .................................................. 3
    known potential for noncompliance. IRS
                                                                        Non-compliance ........................................... 2
    management noted that the report
    concerned a transition period during with                           Compliance could not be
    EO was being reorganized and                                           fully evaluated ........................................ 3
    examination practice were atypical.                                                                             Total           18

12 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
While IRS has made progress                    extensions were sometimes secured
implementing the taxpayer rights               without also securing the related
provisions, there were certain factors that    installment agreement or levy release. For
hindered the implementation efforts. The       those cases in which the case history was
system used to track programming               available, it appeared that IRS and the
changes was not designed to track the          taxpayer intended to establish an
changes through to completion. New             installment agreement in most instances;
procedures for complying with RRA 98           however, the installment agreement was
were not always made available timely. In      never processed or approved.
addition, programming changes need to
be completed on all applicable systems so      In cases where the extension was requested
that certain notices and statements            before January 1, 2000, IRS’ actions may
required by RRA 98 can be sent to              not allow the necessary time to accurately
taxpayers.                                     update collection statute expiration dates
                                               and to collect over $289 million in tax
OA recommended that IRS develop                liabilities. Also, IRS could not provide the
procedures to track programming changes        signed documents needed to support
through to completion; issue procedural        some of the collection statute extensions
guidance at one centralized site; and          recorded on its computer systems. Many
complete the necessary programming to          of the reviewed collection statute
ensure that certain statements and notices     extensions and installment agreements
are sent to approximately 14.4 million         did not have a properly calculated
taxpayers by the dates required.               payment date, thus causing a
                                               miscalculation of the collection statute
IRS management agreed with the                 date.
recommendations and is taking
appropriate corrective action.                 OA recommended that IRS:
                                               • Clarify procedures to ensure that
                                                collection statute extensions are
Improvements Are Needed to                      approved concurrently with a related
Comply With Legal and                           installment agreement or levy release.
Procedural Requirements for
Collection Statute Extensions                  • Update procedures to reflect the new
and Installment Agreements                      locations for storing signed collection
                                                statute forms per IRS’ reorganization.
(Reference No. 2001-10-103)                    • Have IRS management review the
                                                taxpayer accounts identified as
IRS generally must collect a balance due        inaccurate or that may not have
within 10 years of the date the tax was         complied with the law, and take
assessed. RRA 98 § 3461(a) prohibits            appropriate action to correct the
extensions to the 10-year collection statute    collection statute expiration dates.
of limitations except if the extension is in
connection with an installment agreement       • Develop a comprehensive plan for
or levy release. RRA 98 § 3461(c) requires      implementing the provisions of
IRS to change all collection statute            RRA 98 § 3461(c) and for taking actions
extension dates to December 31, 2002, if        to collect the remaining tax liabilities
the collection statute extension was not        before the statutes expire.
secured with an installment agreement
                                               IRS management agreed with the
prior to December 31, 1999.
                                               recommendations and is taking
IRS was not fully complying with these         appropriate corrective action.
requirements. Collection statute


                                                                      TIGTA’s Office of Audit 13
    Small Business and                                                  contractors who receive non-employee
                                                                        compensation are far less compliant in
    Corporate Programs                                                  reporting their income than wage earners.
    The Small Business and Corporate                                    OA recommended that IRS seek
    Programs Unit assesses IRS’ efforts in                              legislation requiring mandatory tax
    keeping self-employed taxpayers, small                              withholding on all non-employee
    businesses, and large and mid-size                                  compensation payments to encourage
    corporations compliant with tax laws and                            accurate information reporting and to
    regulations. The Unit’s work focuses on                             protect the Treasury from the potential loss
    compliance issues, IRS customer service                             of significant tax revenue. As an
    efforts, returns processing issues, and                             alternative, OA recommended that IRS
    other tax aspects that are unique to self-                          seek legislative changes that will enable it
    employed, small, mid-size and large                                 to more aggressively impose backup
    business taxpayers.                                                 withholding requirements and civil penalties
                                                                        on payers who submit Form 1099-MISC
                                                                        with missing or invalid TINs.
    Significant Tax Revenue May Be                                      IRS management responded that they
    Lost Due to Inaccurate                                              have previously submitted proposals to
    Reporting of Taxpayer                                               Treasury that would require mandatory
    Identification Numbers for                                          withholding of income taxes on non-
    Independent Contractors                                             employee compensation payments. In the
    (Reference No. 2001-30-132)                                         past, Treasury has chosen not to forward
                                                                        these proposals to Congress. IRS will
    For TYs 1995 through 1998, IRS received                             decide by December 31, 2001 whether it
    about 9.6 million Statements for Recipients                         is feasible to submit a proposed legislative
    of Miscellaneous Income (Form 1099-MISC)                            change.
    that reported approximately $204 billion in
    non-employee compensation. These
    forms neither contained a Taxpayer                                  Tax Law Changes Are Needed to
    Identification Number (TIN) for the payee                           Improve Fairness in Paying
    nor matched IRS’ records of assigned                                Interest on Tax Refunds
    TINs. As a consequence of the missing
    information, IRS could not use these
                                                                        (Reference No. 2001-30-148)
    documents in its computer-matching
                                                                        On six occasions since 1965, Congress
    programs to determine whether the                                   has taken significant steps to address the
    recipients of this compensation filed a tax
                                                                        issues of when, why, and how much
    return and/or reported all of the income.
                                                                        interest should be paid to taxpayers. In
    OA reported that IRS’ ability to encourage                          taking these steps, Congress has
    the filing of accurate information returns                          attempted to provide strong incentives for
    for non-employee compensation through                               IRS to minimize interest payments by
    its administration of the existing backup                           issuing fast refunds. At the same time,
    withholding and penalty provisions is                               Congress has sought to ensure all
    extremely limited and largely ineffective.                          taxpayers are fairly compensated for IRS
    Between TYs 1995 and 1998, the number                               refund delays and to ensure taxpayers are
    of Forms 1099-MISC submitted to IRS                                 not rewarded with often generous
    with missing or incorrect TINs increased                            government interest for intentionally
    by 36 percent. The amount of potentially                            delaying the refund process.
    lost revenue may be significant since IRS’
                                                                        By quickly issuing refunds requested on
    data suggests that independent
                                                                        original returns, IRS can avoid paying

14 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
interest on the refunds. Interest was paid            obligations in regards to the estimated tax
on only 2 percent of original return refunds          penalty. Individuals who file
in FY 1999. However, the interest laws                Underpayment of Estimated Tax by
provide IRS with little opportunity to avoid          Individuals, Estates and Trusts (Form
substantial interest payments on refunds              2210), and use the short method option,14
resulting from amended returns or from                are submitting paperwork that is a
IRS’ examinations of returns. Consequently,           duplication of normal IRS return
$3.2 billion of the $3.5 billion of interest          processing procedures. OA estimated that
paid by IRS in FY 1999 involved refunds               for TY 1998, over 1.84 million taxpayers
resulting from amended returns or IRS’                submitted a Form 2210 and used the short
examinations of returns. The current                  method option to compute their penalty.
interest laws limit IRS’ ability to carry out
its mission to provide top quality service
and fairness to all taxpayers. In addition,           Table 2. Estimated Breakdown of
the current interest laws create a                             TY 1998 Self-Assessed
government interest expense that                               Estimated Tax Penalties
averages $2.6 billion annually, and
prevents IRS from eliminating that                                             Number of      Percentage of
expense through improved                                                       Taxpayers       Population
responsiveness to taxpayers.
                                                      No Form
Most of the interest paid by IRS is for time           2210 ..................... 1,533,872        36.0%
periods prior to IRS’ knowledge that                  Elective Use:
refundable overpayments existed. OA                    Short Method ....... 1,842,516              43.2%
recommended that IRS seek legislation
                                                      Elective Use:
ensuring that refunds issued within 45 days
                                                       Long Method .......       888,523           20.8%
of a taxpayer request are issued interest-
free. If a refund is not made within 45 days,              Totals              4,264,911            100%
interest should be paid from the date of
the taxpayer’s request for refund to the              Source: Analysis of the audit sample projected to the
                                                      universe of self-assessed ES penalty returns.
date the overpayment is refunded. If such
legislation were enacted, interest would
only be paid on refunds that IRS has                  This duplication of taxpayers’ efforts
delayed.                                              makes a significant contribution to
IRS agreed to complete a review of the                taxpayers’ compliance burden through the
current interest rules by June 1, 2002.               loss of leisure time.
Treasury is responsible for the final                 Using the Office of Management and
determination of the need for legislation             Budget’s figure of $26.50 per burden hour
that stems from that review.                          for tax paperwork, OA estimated that the
                                                      1.87 million hours spent unnecessarily by
                                                      taxpayers in 1999 had a projected
The Internal Revenue Service                          monetary cost of almost $49.6 million.
Has an Opportunity to Relieve
Considerable Taxpayer Burden                          In addition, some of these taxpayers may
                                                      incur out-of-pocket expenses, such as the
Involving the Estimated Tax                           costs of employing the services of a return
Penalty                                               preparer. Form 2210 has not been
(Reference No. 2001-30-164)                           changed since 1986, and it does not

Taxpayers are spending almost 1.87 million      14
                                                     Only taxpayers who either made no ES payments or made
hours unnecessarily to satisfy their tax             four equal ES payments timely can use the short method to
                                                     compute the penalty.


                                                                                      TIGTA’s Office of Audit 15
      provide clear instructions to taxpayers                           IRS does not have sufficient controls to
      regarding their option to allow IRS to                            identify and correct all business-related
      compute the penalty.                                              tax returns filed with an invalid or missing
                                                                        PBA code.
      OA recommended that IRS management
      evaluate the design and clarity of Form 2210                      As a result, IRS cannot identify business
      and its instructions, and coordinate any                          taxpayers by their principal business
      redesign of Form 2210 with both the                               activity for approximately 2 million EINs
      practitioner and tax software communities.                        issued annually. In addition, IRS could not
                                                                        identify approximately 2.8 million
      IRS management agreed with the                                    individuals with business interests and
      recommendation and is taking appropriate                          more than 700,000 corporations and
      corrective action.                                                partnerships by their principal business
                                                                        activity for tax returns filed in Calendar
                                                                        Year (CY) 2000.
      Letter Report: Additional
      Controls Are Necessary to                                         OA recommended that management
      Ensure that All Businesses Are                                    identify business taxpayers by their
                                                                        principal business activity from information
      Classified by Their Principal
                                                                        provided by the taxpayer when an
      Business Activity                                                 Application for Employer Identification
      (Reference No. 2001-30-117)                                       Number (Form SS-4) is filed. IRS’
                                                                        outreach and education efforts are
      The Statistics of Income programs have                            impeded when business taxpayers are not
      historically relied upon Principal Business                       identified by their PBA codes. In addition,
      Activity (PBA) codes to classify                                  management should implement
      businesses by type of activity. As of 1999,                       processing controls to identify Individual
      the four-digit Standard Industrial                                Masterfile tax returns with invalid or
      Classification (SIC) Index number was                             missing PBA codes and Business
      changed to a six-digit number based on                            Masterfile tax returns with invalid PBA
      the North American Industry Classification                        codes for research and correction during
      System (NAICS). The new LMSB and                                  processing.
      Small Business/Self-Employed (SB/SE)
      Divisions rely on the PBA codes to profile                        IRS management agreed with the
      taxpayers by industry or “market segment.”                        recommendations and is taking
                                                                        appropriate corrective action.
      IRS successfully converted from the SIC
      Index to the NAICS. The NAICS codes
      adopted for IRS use were sufficient to                            Management Advisory Report:
      allow the taxpayers to accurately code
                                                                        The Internal Revenue Service
      their tax returns by principal business
      activity. However, IRS has not taken                              Could Reduce the Number of
      advantage of the opportunity to                                   Business Tax Returns Destroyed
      immediately identify taxpayers’ PBA codes                         Because of Missing Information
      when they request Employer Identification                         (Reference No. 2001-30-099)
      Numbers (EINs) and their accounts are
      first established on IRS’ Masterfile.15 Also,                     OA conducted a limited scope review of
                                                                        business income tax returns sent by
                                                                        taxpayers to lockbox banks that were
                                                                        reportedly lost by IRS before the returns
15
     The Masterfile is IRS’ main computer system containing             could be processed even though the
     taxpayer accounts. The Individual Masterfile is IRS’               payments associated with the tax returns
     database that maintains transactions or records of
     individual tax accounts.                                           were processed. The returns involved

16 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
were the Employer’s Quarterly Federal Tax    without first supplying the missing
Returns (Form 941) as shown in Exhibit 1;    information. Without this information, IRS
and the Employer’s Annual Federal            centers declared the returns
Unemployment Tax Returns (Forms 940          unprocessable and destroyed them.
and 940-EZ) and their associated             Subsequently, IRS corresponded with
Payment Vouchers (Form 941-V) as             taxpayers telling them their tax returns
shown in Exhibit 2.                          were lost or were never received and
                                             asking them to provide copies of their tax
                                             returns.
Exhibit 1. Form 941                          OA recommended that IRS:
                                             • Redesign Form 941, Form 940, and
                                              Form 940-EZ.
                                             • Ensure that lockbox banks identify when
                                              taxpayer identifying information is
                                              missing from tax returns and either enter
                                              the information from the payment
                                              voucher or copy the voucher and send it
                                              to IRS with the tax return.
                                             • Have employees contact state tax
                                              agencies to obtain missing taxpayer
                                              identifying information.
                                             IRS management agreed with the
Exhibit 2. Form 941-V                        recommendations and is taking
                                             appropriate corrective action.


                                             Some Individual Taxpayers are
                                             Inappropriately Receiving Tax
                                             Credits Intended for Businesses
                                             that Provide Access for Disabled
                                             Americans
                                             (Reference No. 2001-30-158)
                                             In CY 2000, IRS and TIGTA were made
OA reported that during IRS’ 2000 and        aware of taxpayers purchasing pay
2001 returns processing seasons, it          telephones with volume controls and
processed thousands of payments              claiming Disabled Access Credits on their
submitted with business tax returns for      individual income tax returns.
which the associated business tax returns
were not processed. Many of these            OA identified 391 U.S. Individual Income
instances were the result of taxpayers       Tax Returns (Form 1040) for TY 1999
omitting their names, addresses, and         claiming $1.09 million in Disabled Access
taxpayer identification numbers from their   Credits even though the tax returns
tax returns. Although this taxpayer          indicated no business reasons for taking
identifying information was available on     the credits.
payment vouchers included with the tax       OA recommended that IRS management
returns, lockbox banks forwarded these       warn taxpayers who may be the victims of
tax returns to IRS centers for processing    these fraudulent promotions that such

                                                                    TIGTA’s Office of Audit 17
    investments most likely do not qualify for                          Millions of Dollars in Erroneous
    the Disabled Access Credit. Also, IRS                               Education Credits Continue to
    management should work with their                                   Be Allowed
    respective Compliance functions and the
    Criminal Investigation function to develop                          (Reference No. 2001-40-183)
    a compliance approach for taxpayers
                                                                        During CY 2000, IRS did not have controls
    taking the Disabled Access Credit without
                                                                        in place to effectively validate claim
    qualifying businesses.
                                                                        requirements before allowing $4.4 billion
    IRS management agreed with OA’s overall                             in Education Credits given to 6.1 million
    finding, and agreed to analyze future tax                           taxpayers. OA reported that if IRS
    data to identify potentially unallowable                            automated the process to validate claims
    credits and take appropriate compliance                             for the Education Credit, it may prevent
    actions when abusive schemes are                                    approximately $20.56 million in potentially
    identified. However, IRS management did                             lost revenue each year.
    not agree to issue a press release. IRS
                                                                        In the 2 years since the inception of the
    management stated that they would
                                                                        Education Credit (TYs 1998 and 1999),
    provide information on IRS’ web site
                                                                        IRS has been unable to provide a high
    targeted at individuals who may
                                                                        degree of assurance that the $7.9 billion
    improperly promote schemes associated
                                                                        given to 10.9 million taxpayers was
    with the Disabled Access Credit rather
                                                                        appropriate. Although taxpayers provided
    than focusing on the taxpayers who may
                                                                        information needed to ensure they met
    invest in those schemes and
                                                                        basic qualifications, most of this
    inappropriately claim the credit on their tax
                                                                        information was not effectively used to
    returns.
                                                                        validate the Education Credits. Instead,
    OA disagreed with IRS’ approach of                                  IRS relied on voluntary taxpayer
    narrowly focusing on the promoter while                             compliance to ensure that the 6.1 million
    ignoring the victim. IRS subsequently                               taxpayers were qualified to claim the
    agreed to take the approach that focuses                            credit.
    on the taxpayers who may be the victims
                                                                        OA recommended that IRS management
    of these fraudulent promotions.
                                                                        automate its process to validate claims for
                                                                        the Education Credit.

    Wage and Investment                                                 IRS management’s response was not
                                                                        received prior to the issuance of the audit
    Income                                                              report.
    The Wage and Investment Income
    Programs Unit assesses IRS’ program for
    assisting and servicing approximately
                                                                        The Internal Revenue Service
    90 million taxpayers filing simple tax                              Successfully Processed
    returns. The Unit’s work primarily focuses                          Individual Tax Returns During
    on IRS’ efforts to help taxpayers comply                            the 2001 Filing Season
    with laws and regulations.                                          (Reference No. 2001-40-192)
                                                                        IRS successfully processed 109 million
                                                                        individual returns and issued $148.2 billion
                                                                        in refunds as of June 1, 2001. OA’s tests
                                                                        of selected returns showed that, in about
                                                                        99 percent of the time, IRS achieved its



18 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
performance goal to issue refunds within         IRS management’s response was not
40 days. Also, IRS reported, as of               received prior to the issuance of the audit
June 1, 2001, that it had identified and         report.
resolved over 19 million taxpayer and IRS
processing errors. This was an increase
of about 9 percent from last year.               Management Advisory Report:
While significant progress was made in           The Notice Review Program
the implementation of tax law changes            Should Be Improved to Prevent
and related initiatives, IRS has the             Erroneous Notices From Being
opportunity to continue to improve in the        Sent to Taxpayers
areas of clarity of taxpayer notices and         (Reference No: 2001-40-078)
consistency among processing
procedures, taxpayer instructions, and           OA reported that IRS did not review all
legislative requirements. OA tests showed        potentially erroneous notices; the
that, in some instances, IRS improperly          Submission Processing Centers did not
denied the personal exemption and the            place priority on notices with the highest
earned income credit when the spouse’s           potential for error; and the national
name and Social Security number (SSN)            oversight of the Notice Review Program
were accurate. If the results of this test are   could be improved.
representative of the 2001 filing season, IRS
may have erroneously disallowed                  From January through September 2000,
exemptions and credits totaling about            IRS reported that it did not review 539,852
$36.5 million for over 66,000 taxpayers.         (13 percent) of the 4.1 million notices
IRS was able to successfully process             identified as having a high potential for
individual income tax returns while              error. If the error rate for these notices is
reacting to unexpected taxpayer filing           consistent with that found on notices that
patterns. However, additional steps can          were reviewed, IRS may have incorrectly
be taken to enhance its ability to plan for      notified 80,702 taxpayers about an
and react to those events as they occur          additional tax liability, an error on their
during the filing season.                        return, or an adjustment to their account.

OA recommended that IRS management               IRS guidelines required that all of the
ensure that detailed, comprehensive plans        notices selected for review be reviewed.
are developed when implementing tax law          IRS executives advised that they did not
changes and initiatives and that these           have enough staff to work the entire
plans include a process to ensure that           inventory of potentially erroneous notices.
action items are timely completed prior to       Not reviewing the entire weekly notice
the beginning of the filing season. IRS          inventory increased the probability that
management also should timely analyze            erroneous notices and refunds were
taxpayer filing patterns during the filing       mailed to taxpayers.
season as a tool to assist IRS in                IRS procedures did not ensure that
determining what additional actions should       notices with the highest potential for error
be taken as the current filing season            were worked first. From January through
progresses and to assist in planning for         September 2000, IRS reviewed
the following filing season. Finally, IRS        approximately 1.5 million notices with error
management should enhance contingency            rates of 10 percent or less, while it did not
planning tools to ensure that it will be able    review approximately 77,000 notices with
to timely react to unanticipated changes         anticipated error rates of 30 percent or
that occur during the filing season.             higher. Not establishing a priority to



                                                                         TIGTA’s Office of Audit 19
    review notices with the highest potential
    for error increased the risk that taxpayers
    received erroneous notices and refunds.
    OA identified issues that indicated the
    national oversight of the Program could
    have been more effective. For example,
    the data compiled to monitor and evaluate
    the program were not reviewed.
    Because IRS is in the process of moving
    the current Notice Review Program into its
    new business organization, OA did not
    make recommendations for program
    improvements and did not require a formal
    response.                                                           during Spanish language calls. To
                                                                        determine possible reasons why bilingual
                                                                        telephone assistors are not always using
    Spanish-Speaking Taxpayers                                          the guide, OA interviewed several newly
    Receive Expanded Access to                                          hired bilingual assistors for their
    Telephone Assistance                                                perspective on why the guide was not
                                                                        always being used. Concerns included
    (Reference No. 2001-40-163)                                         having to translate the text from English to
                                                                        Spanish while on the telephone with
    In RRA 98, Congress recognized the need                             taxpayers and needing supplemental
    to provide a growing Spanish-speaking                               information not readily available in some
    population with improved access to                                  sections of the guide.
    income tax assistance and instructed IRS
    to provide the option for taxpayers to                              OA recommended that IRS evaluate the
    receive answers in Spanish to their                                 guide and consider changes to help
    questions over IRS telephone helplines.                             improve the quality of responses provided
    IRS began offering General Inquiry toll-                            to Spanish-speaking taxpayers. IRS
    free telephone assistance to Spanish-                               management agreed with the
    speaking taxpayers in 2000 by significantly                         recommendations and is taking
    expanding its toll-free service in 2001. It                         appropriate corrective action.
    offers a Spanish language option on all
    three of IRS’ major toll-free help lines. IRS
    has also established a new call site in                             Information Systems
    Puerto Rico.
    IRS has expanded service to Spanish-                                The Information Systems Programs Unit
    speaking taxpayers, but improvement is                              conducts reviews to address RRA 98
    needed in the quality of responses being                            requirements that TIGTA annually report
    provided. OA determined in test calls that                          on the adequacy and security of IRS
    assistors provided appropriate responses                            technology. OA’s overall assessment is
    for only 123 of 174 test calls conducted.                           provided on pages 7 and 8. The individual
                                                                        reports are listed on page 71 in
    The primary reason for low quality                                  Appendix VI.
    performance was, as reported by IRS’
    Centralized Quality Review Staff, the non-
    use or incomplete use of the reference
    guide used to answer tax law questions



20 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
      The Internal Revenue Service Is                             OA recommended that the Deputy
      Making Progress, But Is Not Yet                             Commissioner for Modernization and the
      in Full Compliance With the                                 Chief Financial Officer prepare an overall
      Requirements of the Clinger-                                strategy, a plan and a schedule to bring
      Cohen Act                                                   IRS into full compliance with the
                                                                  Clinger-Cohen Act requirements.
      (Reference No. 2001-20-146)
                                                                  IRS management agreed with the audit
      The Clinger-Cohen Act 16 requires Federal                   recommendation and has initiated
      agencies to make sound investment                           corrective actions.
      decisions before purchasing information
      technology systems. Because of changes
      to IRS’ structure and modernization
      strategy that began in 1998, IRS is still
      developing and implementing the
      information technology investment
      processes envisioned in the
      Clinger-Cohen Act.
      OA reported that IRS still needs to
      implement repeatable processes in order
      to be in full compliance with five key
      requirements of the Clinger-Cohen Act.
      These requirements include the selection,
      control, and evaluation of information
      technology investments; performance and
      results-based management; accountability
      and information technology asset
      management; the Chief Information
      Officer’s role in the development of the
      IRS’ information technology architecture
      and information resources management
      capability; and information systems
      security policies, procedures, and
      practices.
      IRS has recently introduced a new
      strategic planning process and other
      related processes, e.g., the Investment
      Decision Management process, to better
      manage its information technology
      investments, but the use of these
      processes is still evolving. Therefore, IRS
      cannot yet fully assure that it is getting
      maximum value for its $1.6 million annual
      Modernization and Information Technology
      Services budget.




16
     Clinger-Cohen Act, Pub. L. No. 104-106, Division E (1996),
     codified at 40 U.S.C. Chapter 25.


                                                                                         TIGTA’s Office of Audit 21
                                        Office of Investigations

Introduction                                       Protection of Taxpayers
OI administers investigative programs that
                                                   and IRS Employees
protect the integrity of IRS and detect and
                                                   TIGTA is dedicated to ensuring individuals
prevent fraud and other misconduct within
                                                   and IRS employees the highest degree of
IRS programs. This includes investigating
                                                   integrity, fairness, and trust in the Nation’s tax
allegations of criminal violations and
                                                   administration system. To heighten
administrative misconduct by IRS employees,
                                                   awareness and provide a deterrent effect
as well as protecting IRS against external
                                                   against fraud and misconduct, TIGTA special
attempts to corrupt or threaten its employees.
                                                   agents routinely conduct integrity awareness
Specifically, these areas of responsibility        presentations for IRS employees and various
include:                                           professional organizations, including local law
                                                   enforcement agencies, tax practitioners, and
•   Administering programs to investigate and      community groups. During this reporting
    prevent threats and/or acts of violence        period, OI conducted 639 presentations for
    against IRS.                                   23,432 individuals. Approximately 89 percent
                                                   of these individuals were IRS employees.
•   Operating a national complaint center,
    including a hotline and web-site, to receive   OI conducts investigations that protect
    and process allegations of fraud, waste, or    individuals from IRS employees who commit
    abuse.                                         criminal violations and administrative
                                                   misconduct. These investigations may involve
•   Providing forensic examination of              allegations of unauthorized access to and
    documentary evidence.                          disclosure of confidential taxpayer
                                                   information, bribery, financial fraud, false
•   Providing technical and investigative          statements, and abuse of taxpayer rights.
    assistance, equipment, training, and other     During this six-month reporting period, OI
    specialized services to enhance                closed 1,260 IRS employee investigations.
    investigative operations.
                                                   OI is also committed to protecting and
•   Administering a proactive program to           supporting IRS employees as they carry out
    detect and deter fraud and corruption in       the mission of IRS. TIGTA investigates
    IRS programs and operations.                   individuals who attempt to interfere with or
                                                   corrupt the administration of the Federal
                                                   income tax system, to include investigations
                                                   of bribery, assault, threat, theft, and
                                                   embezzlements. During this reporting
                                                   period, OI closed 1,045 investigations
                                                   involving these and other types of allegations.




                                                                         TIGTA’s Office of Investigations 23
Complaint Management                                              •     Makes recommendations to improve
                                                                        system security weaknesses identified
Division                                                                during the course of analyses related to
                                                                        internal fraud, and UNAX violations are
The Complaint Management Division (CMD)                                 forwarded to IRS.
is a centralized clearinghouse for processing
and tracking allegations of fraud, waste and                      •     Performs extensive investigative and
abuse and other forms of wrongdoing. CMD                                forensic data analyses for field special
operates a toll-free telephone number, which                            agents, assists in seizing computers,
is advertised both inside and outside IRS.                              analyzes computer-related evidence, and
CMD also receives complaints through an e-                              conducts searches on the Internet.
mail address and a central post office box.
CMD’s complaint tracking system provides a
centralized accounting of all complaints                          SED provided assistance in a number of
received by TIGTA and the status and final                        cases. For example:
dispositions of those complaints. The system                            As a result of the September 11, 2001
also has the capability to document and track                           terrorist attacks against the United States,
complaints involving multiple subjects. To                              SED diverted most of its resources to
ensure that all complaints received by TIGTA                            assist the FBI in the investigation of
are acknowledged, complainants are                                      international and domestic terrorism. In
provided with a complaint number and a                                  compliance with 26 U.S.C.§ 6103,
telephone number to contact TIGTA if they                               Confidentiality and Disclosure of Return
want to provide additional information                                  and Return Information, SED continues to
regarding their complaint.                                              secure Federal tax information and other
During the reporting period, TIGTA received                             electronic data from various computer
3,902 complaints. The status of these                                   systems, analyzing the data, and providing
complaints is shown in Appendix II, page 38.                            vital information to the FBI.
                                                                        SED’s Systems Intrusion Network Attack
                                                                        Response Team was informed that a
Strategic Enforcement                                                   contractor, who had been dismissed, had
                                                                        the opportunity to expose IRS’ network to
Division                                                                various sorts of exploitation. SED agents,
                                                                        with the assistance of IRS contractors and
The Strategic Enforcement Division (SED) is                             administrators, identified a destructive code
responsible for executing a proactive program                           that was installed by this individual. SED
to detect fraud in IRS operations,                                      agents were able to contain the damage
unauthorized accesses (UNAX) to IRS                                     and ensure a total recovery of the system.
computer systems by internal users, and                                 In July 2001, the former contractor pled
attempts to interfere with the security of IRS                          guilty to intentionally causing damage to a
computers by external sources.                                          protected IRS computer system.
SED combines the expertise of auditors,                                 A joint investigation conducted by TIGTA,
special agents, and computer programmers                                the U.S. Secret Service, and the FBI
to form a successful investigative team to                              successfully identified the source of
accomplish its mission. Specifically, SED:                              Internet threats directed at the President, a
•   Conducts proactive security testing to                              TIGTA special agent, and other law
    ensure that adequate safeguards are in                              enforcement officials. TIGTA’s SED
    place to defend against newly identified                            assisted in the investigation by providing
    network vulnerabilities, as well as newly                           investigative computer information and
    disseminated hacker tools found                                     support that ultimately led to the issuance
    throughout the Internet.                                            of a Federal court order and the

24 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
     identification of an Australian national who                     During this reporting period, there has been
     was responsible for the threats.                                 one criminal prosecution and 63 adverse
                                                                      administrative actions against IRS employees
                                                                      involved in unauthorized access to taxpayer
National Investigative                                                information.
Initiatives
A principal component of SED’s operation                              Technical and Forensic
involves National Investigative Initiatives,                          Support Division
which are established from information
developed during successful investigations.                           The Technical and Forensic Support Division
The methodology of a crime is used to                                 is responsible for implementing programs
develop computer database applications that                           concerning Technical Services and the
will identify other individuals who may be                            Forensic Science Laboratory (FSL). Each of
perpetrating the same crime. Computer                                 these programs provides technical expertise
matching is used nationwide in proactive                              throughout the development and the
initiatives. These initiatives are included in                        adjudication process of investigations.
the Computer Matching Act17 agreements
approved by Treasury’s Data Integrity Board
and published in the Federal Register. During
this reporting period, there were 7 ongoing                           Technical Services
initiatives and 34 criminal referrals to field
special agents for investigation.                                     Technical Services is responsible for
                                                                      providing technical and investigative
                                                                      assistance, equipment, training, and other
UNAX Detection Program                                                specialized services to enhance TIGTA’s
                                                                      investigative activities. Technical Services
UNAX detection is SED’s most aggressive                               provides crucial support in the collection,
national investigative initiative. The Audit Trail                    preservation, and enhancement of evidence
Lead Analysis System identifies employees                             through the use of sophisticated electronic
who have made potential unauthorized                                  surveillance equipment. Examples of such
accesses to electronic taxpayer information                           investigative support include:
on IRS computer systems. During this
reporting period, SED:                                                  During the investigation of an interstate
                                                                        telemarketing fraud scheme, Technical
•    Identified and analyzed 293 leads of                               Services installed numerous court-ordered
     potential unauthorized accesses to tax                             intercepts on phone lines at two locations.
     information by IRS employees.                                      These intercepts assisted in establishing
•    Referred 139 leads to field special agents                         probable cause for subsequent search
     for investigation of violations of the                             warrants of the telemarketing businesses.
     Taxpayer Browsing Protection Act of                                Real-time data from one intercept
     1997.18                                                            established that an individual was actually
                                                                        on the telephone to a victim as agents
                                                                        entered to execute the search warrant. Six
                                                                        individuals were ultimately arrested as the
17
     Pub. L. No. 101-56,103 Stat. 149 (1989).                           result of the investigation.
18
     A provision of the Taxpayer Browsing Protection Act of
     1997, I.R.C. § 7431 (e) provides for notification to taxpayers     An individual who had previously been
     of the unlawful inspection of disclosure of their returns and      convicted of Federal crimes engaged in the
     return information in cases where an IRS employee is
     charged criminally for violations of unauthorized access or        theft of mail, stalking, trespassing, and
     disclosure of returns or return information.


                                                                                          TIGTA’s Office of Investigations 25
  Internet searches for the purpose of                                  Federal prosecutors. The individual was
  identifying the addresses and vehicles                                sentenced to 78 months in prison and
  belonging to Federal law enforcement                                  required to pay $240,000 in restitution.
  agents who were involved in the individual’s
  previous prosecution. During a joint TIGTA                            FSL’s senior latent finger print specialist
  and Bureau of Alcohol, Tobacco and                                    conducted analyses of various items of
  Firearms investigation, specialized tracking                          evidence, identified a defendant’s prints on
  equipment was placed on the individual’s                              numerous documents and provided expert
  vehicle as authorized by a sealed court                               testimony in April 2001. As a result, the
  order. This technology alerted special                                individual was sentenced in August 2001 to
  agents to the movement of the individual’s                            10 years imprisonment, followed by 3 years
  vehicle toward the rural address of another                           probation and a $10,000 fine.
  Federal agent. Local sheriffs’ deputies and
  TIGTA agents were successful in locating
  the individual in close proximity to the
  agent’s home. The individual was tried and                      Special Inquiries and
  convicted on charges of interstate stalking.
                                                                  Inspection Division
                                                                  The Special Inquiries and Inspection Division
                                                                  (SIID) is a Headquarters function under the
Forensic Science Laboratory                                       Deputy Inspector General for Investigations.
                                                                  SIID is responsible for:
Criminal investigations often rely upon the
forensic analysis of evidence. The TIGTA
Forensic Science Laboratory (FSL) supports
field investigations through timely processing                    •     Maintaining the TIGTA Domestic Terrorism
of physical evidence using various techniques                           Program, which develops and facilitates
and best practices to identify investigative                            pertinent information regarding potential
subjects, including chemical processing and                             threats to TIGTA and IRS employees and
comparison for latent prints, handwriting                               operations. This program includes national
identification, and digital image enhancement.                          participation in the FBI sponsored Joint
                                                                        Terrorism Task Force.
During this six-month reporting period, FSL
had 110 case submissions and issued
115 reports of laboratory examination. FSL                        •     Investigating allegations of misconduct and
examined evidence from a number of cases                                breaches of integrity by TIGTA employees,
including:                                                              IRS Senior Executives (Grades 15 and
  A Federal grand jury charged an individual                            above) and international employees located
  with 34 felony counts including violations                            in Washington, DC and U.S. embassies.
  for impersonating an IRS special agent,
  identity theft, false possession of
  identification documents, possession of an                      •     Investigating fraud, waste and abuse
  altered SSN, mail fraud on a financial                                involving IRS procurements and promoting
  institution, wire fraud, credit card fraud and                        fraud awareness.
  money laundering. A senior FSL document
  examiner identified the individual’s
  handwriting and signatures on numerous                          •     Inspecting TIGTA Divisional Investigative
  fraudulent documents. The individual pled                             Offices and related Headquarters functions.
  guilty to one charge of bank fraud and one                            The inspection process ensures that
  charge of interrupting interstate commerce                            investigations and operations are
  in exchange for a plea agreement with                                 conducted in compliance with applicable


26 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
 laws, rules, regulations and the TIGTA          forcible interference with tax administration.
 Operations Manual. It also ensures that         The individual entered an IRS Customer
 OI’s resources are being effectively and        Service office, expressed dissatisfaction
 efficiently managed.                            with the level of service received, and
                                                 threatened to return to the office with a
                                                 machine gun. The threat forced the closure
                                                 of the IRS Taxpayer Services office for
Significant Investigations                       several hours.

 Threat, Assault and
 Harassment Investigations                       TIGTA Provided Assistance in a
                                                 Church Bombing Case
 IRS employees face a difficult and
 challenging mission in serving taxpayers.       In April 2001, a U.S. Attorney requested
 OI considers responding to and                  TIGTA assistance in the trial of an
 investigating threats and assaults against      individual charged with the 1963 bombing
 IRS employees one of its highest priorities.    of a church, which resulted in the deaths of
 It also investigates incidents of harassment    four young girls. A TIGTA employee, known
 by individuals who attempt to undermine         for expertise in transcribing recorded
 IRS employees as they carry out their           conversations, worked with the U.S.
 duties. OI also investigates alleged            Attorney and FBI to review tape recordings
 misconduct by IRS employees involving           made in the individual’s home by the FBI
 sexual battery and inappropriate behavior.      during the original investigation. While
 During this six-month period, OI closed         reviewing the tape, the TIGTA employee
 443 threat, assault or harassment               was able to identify incriminating phrases
 investigations.                                 not previously known to the prosecution.
                                                 The individual was convicted in May 2001.


 “Assassination Politics” Author
 Sentenced to 10 Years in Prison                 Bribery Investigations
 In August 2001, a Federal judge sentenced       IRS employees can be targets for bribery
 an individual to 10 years imprisonment,         due to their frequent contacts with
 three years probation, and a $10,000 fine       taxpayers. Their positions also provide
 in the conviction of two counts of interstate   unscrupulous employees with opportunities
 stalking of a TIGTA special agent. The          to extort and solicit bribes from individuals
 individual is the acknowledged author of        and to conspire with individuals to threaten
 Assassination Politics, an essay published      the integrity of the tax administration
 on the Internet that advocates the              process.
 assassination or elimination of government
 employees.                                      Bribery is often a focus of TIGTA’s integrity
                                                 awareness presentations. These
                                                 presentations are used as a deterrent to
                                                 dissuade employees from taking
 Individual Sentenced for                        inappropriate advantage of their positions.
 Threatening IRS Employees                       During the presentations, employees are
                                                 shown how to recognize bribe overtures
 In August 2001, a Federal magistrate            and their responsibilities in reporting bribe
 sentenced an individual to seven months in      attempts.
 prison and a $500 fine for one count of


                                                                   TIGTA’s Office of Investigations 27
  During this reporting period, OI closed                               count of bribery of public officials, and was
  61 bribery investigations.                                            sentenced to three months imprisonment,
                                                                        followed by two years of supervised release
                                                                        and a $10,000 fine.

  A 30-Year IRS Employee Charged
  with Bribery                                                          Three Individuals Pled Guilty to
                                                                        Bribery Charges
  In September 2001, a 30-year employee of
  IRS was arrested on charges of bribery.                               In June and July 2001, three individuals
  The FBI furnished TIGTA with documents                                pled guilty to one count each of bribery.
  seized during the execution of a search                               The three were charged with offering a
  warrant, indicating that a company owner                              cooperating employee $1,000 in jewelry
  had allegedly bribed an unnamed IRS                                   and a total of $85,000 in cash to eliminate
  employee.                                                             Federal tax liabilities.
  An IRS employee was identified who was
  assigned to collect delinquent taxes owed
  by the company. During the time the                                   Theft, Embezzlement and
  employee was assigned the collection
  case, the company owner provided the IRS
                                                                        Fraud Investigations
  employee with a $14,900 check, which was
                                                                        TIGTA investigates incidents of theft,
  subsequently used by the IRS employee to
                                                                        embezzlement and fraud committed by
  purchase a vehicle. The IRS employee
                                                                        both internal and external sources. TIGTA
  also negotiated an additional $3,800 check
                                                                        also investigates incidents of impersonation
  from the company.
                                                                        and where individuals attempt to defraud
  During the timeframe that the IRS                                     taxpayers, as well as incidents of identify
  employee was assigned to the company’s                                theft. Identity theft occurs when a victim’s
  tax case, the company’s tax delinquency                               SSN and/or other identifying documents
  increased from $450,000 to over $600,000.                             (e.g., driver’s license, passport, etc.) are
  The IRS employee admitted to receiving                                stolen.
  the aforementioned items of value from the
  company owner in exchange for not
  pursuing the company’s outstanding                                    Fifteen Indicted for Conspiracy
  delinquent tax liabilities.                                           to Defraud Government
                                                                        A Federal grand jury indicted 15 people on
  Certified Public Accountant                                           charges of conspiracy to defraud the U.S.
  Sentenced in Bribery                                                  Government; offering fictitious obligations;
  Investigation                                                         and making or counseling false declarations
                                                                        to IRS. According to the 79-count indictment,
  In June 2001, a Federal judge sentenced a                             the individuals allegedly manufactured
  Certified Public Accountant (CPA) to three                            more than 3,000 “sight drafts” or financial
  months imprisonment in connection with                                instruments falsely purporting to be U.S.
  the attempted bribery of an IRS employee.                             financial instruments. The sight drafts
  According to the criminal complaint, the                              were used as checks totaling in excess of
  CPA allegedly offered bribes to an IRS                                $550 million payable to government
  employee in exchange for filing false audit                           agencies, creditors, and others, knowing
  reports to reduce the tax liability of clients                        that the drafts were worthless.
  of the CPA. The CPA pled guilty to one


28 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
The indictment also alleged that the            license to practice had been suspended
individuals knowingly sent IRS Reports of       since 1991.
Cash Payments Over $10,000 Received in
a Trade or Business (Form 8300), totaling       Allegedly, the individual falsely represented
more than $490 million dollars. The forms       to the couple that IRS had accepted their
were purportedly used to report to IRS          offer in compromise (OIC) and told the
cash transactions with judges, law              couple that the individual needed a check
enforcement officers, public officials,         from IRS for partial payment of the OIC.
creditors and others in an effort to harass,    The individual then deposited checks
intimidate, and create legal and financial      received from the couple into a personal
problems for these individuals. Form 8300       account and did not pay IRS the money.
requires any person engaged in a trade or       The indictment further alleged that this
business to report to IRS any cash              individual created and sent to the couple a
transactions in excess of $10,000.              number of letters purporting to be from
                                                IRS, which falsely indicated that IRS was in
                                                the process of releasing the tax lien against
                                                the couple.
CPA Pled Guilty to Conspiring
with Two IRS Employees in a
Small Business Administration                   Individual Sentenced for Bank
Loan Fraud                                      Fraud Involving Stolen Treasury
In May 2001, a CPA pled guilty to two
                                                Checks
counts of a 26-count indictment that            In July 2001, an individual was sentenced
addressed a Small Business Administration       to 15 months imprisonment after pleading
(SBA) loan fraud conspiracy among the           guilty to one count of bank fraud involving
CPA, two IRS employees and dozens of            the depositing of a stolen U.S. Treasury
clients. TIGTA determined that the scheme       check. In the guilty plea, the individual
involved the submission of SBA loan             stipulated that, along with others, they
packages that contained false tax returns,      negotiated more than 60 stolen U.S.
IRS tax return verifications and other          Treasury checks worth approximately
records. The two IRS employees used the         $500,000 through deposits in various bank
IRS computer system to create the tax           accounts. The indictment alleged that the
verifications. This case identified technical   individual and others stole U.S. Treasury
flaws in controls over the IRS’ computer        checks made payable to various
system, which allows employees to               corporations.
produce fraudulent documents. TIGTA
reported these findings to IRS.
                                                Individual Pled Guilty to
Forty-Two Count Indictment in                   Conspiracy and Mail Fraud
Fraud Investigation                             In July 2001, an individual pled guilty to
                                                one count of conspiracy to defraud IRS and
In June 2001, a grand jury indicted an          one count of mail fraud. The individual
individual on 42 counts of false statements,    attempted to pay off tax debts and to obtain
mail fraud, wire fraud and tampering with a     money in refunds by presenting more than
witness in connection with an alleged           $2.5 million in worthless checks to IRS.
scheme to defraud a couple out of money         According to the indictment, the individual
intended for the IRS. According to the          had income tax debts and conspired with
indictment, the individual claimed to be a      another individual to obtain the bogus
licensed CPA, even though the individual’s      documents.

                                                                  TIGTA’s Office of Investigations 29
  Individual Indicted for Identity                                IRS documents and to receive money in
  Fraud                                                           furtherance of the scheme.
                                                                  In August 2001, the IRS employee was
  In August 2000, a TIGTA special agent                           sentenced to four months confinement in a
  received information from an individual                         halfway house, four months home
  (victim) alleging that someone was using the                    confinement and three years probation. The
  victim’s SSN to earn income. The victim                         IRS employee subsequently made full
  claimed that IRS withheld the two most recent                   restitution. Prior to sentencing, the IRS
  income tax refunds, and that the victim’s son’s                 employee resigned from IRS in lieu of
  disability benefits were discontinued due to                    termination.
  the extra income associated with the victim’s
  SSN. The investigation disclosed that another
  individual located thousands of miles away
  was using the SSN for employment purposes.                      Individual Sentenced for Role in
                                                                  Identity Theft Fraud Ring
  The subject entered the U.S. illegally from
  Mexico during 1993 and purchased an                             In September 2001, an individual was
  identity package for $2000 in the name of the                   sentenced to 46 months imprisonment, 3 years
  victim. The subject earned approximately                        probation, and ordered to pay $3,852,086 in
  $57,222 by using the name and SSN of the                        restitution and $400 in special assessments
  name and SSN of the victim. The subject                         for participation in an identity theft fraud ring.
  also applied for and received a total of                        The individual provided identity information of
  $18,847 in fraudulent Aid to Family with                        individuals and false identification documents,
  Dependant Children benefits on behalf of the                    including SSNs, to the theft fraud ring. The
  subject’s daughter. In September 2001, the                      theft fraud ring used this information to
  subject was indicted by a grand jury for                        activate stolen credit cards and establish
  misuse of a SSN. The referenced tax refunds                     bank accounts used to deposit stolen checks.
  were subsequently given to the victim as a                      Among these checks were IRS refund checks
  result of TIGTA’s involvement.                                  and tax remittances.
                                                                  During the investigation, TIGTA Computer
  Former IRS Employee Devised                                     Investigative Specialists discovered computer
  Fraudulent Investment Scheme                                    evidence and images of false identifications
                                                                  used in the frauds. The individual obtained
  In April 2001, an IRS employee pled guilty to                   the biographical information under false
  mail fraud after embezzling $74,000 from                        pretenses from three Internet companies.
  friends by promising to invest money in a                       Audit trails from the Internet companies
  non-existent investment plan. The IRS                           indicated that over a four-year period, the
  employee used the U.S. mail to send altered                     subject accessed information concerning over
                                                                  10,000 different individuals.




30 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                                                       Appendix I - Office of Audit’s
                                                                                Statistical Reports

Audit Reports With
Questioned Costs
Three audit reports with questioned costs were issued during this semiannual reporting period.
The term “questioned cost” is defined as a cost that is questioned because of: (1) an alleged
violation of a provision of a law, regulation, contract, or other requirement governing the
expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by
adequate documentation, i.e., “unsupported cost” or (3) a finding that expenditure of funds for the
intended purpose is unnecessary or unreasonable. The term “disallowed cost” is defined as a
questioned cost that management, in a management decision, has sustained or agreed should not
be charged to the Government.


    Reports With Questioned Costs                                                Number       Questioned            Unsupported Costs
           (4/1/01 - 9/30/01)                                                       of           Costs2               (In Thousands)
                Report Category                                                  Reports1   (In Thousands)

    1. For which no management decision
       had been made by the beginning of
       the reporting period. .........................................              1              $28                          $27
    2. Which were issued during the reporting
       period. ...............................................................      3             $140                           $4
    3. Subtotals (Item 1 plus Item 2) ..........................                    4             $168                          $31
    4. For which a management decision was
       made during the reporting period.
        - Dollar value of disallowed costs ....................                     2              $33                          $31
        - Dollar value of costs not disallowed ..............                       0                $0                          $0
    5. For which no management decision had
       been made by the end of the reporting
       period. (Item 3 minus Item 4) ...........................                    2            $1363                           $0
    6. For which no management decision was
       made within six months of report issuance. .....                             0                $0                          $0

1
    See Appendix IV for identification of audit reports involved.
2
    “Questioned Costs” include “Unsupported Costs.”
3
    Difference due to rounding.




                                                                                            Appendix I - Office of Audit’s Statistical Reports   31
Report Recommendations
That Funds Be Put to
Better Use

Four reports with recommendations that funds be put to better use were issued during this six-
months reporting period.
The term “recommendation that funds be put to better use” is defined as a recommendation that
funds could be used more efficiently if management took actions to implement and complete the
recommendation, including: (1) reductions in outlays; (2) deobligations of funds from programs or
operations; (3) costs not incurred by implementing recommended improvements related to
operations; (4) avoidance of unnecessary expenditures noted in pre-award reviews of contract
agreements; or (5) any other savings which are specifically identified. The term “management
decision” is defined as the evaluation by management of the findings and recommendations
included in an audit report and the issuance of a final decision concerning its response to such
findings and recommendations, including actions concluded to be necessary.

    Reports With Recommendations That Funds Be Put to Better Use                                                   Number
                         (4/1/01 - 9/30/01)                                                                           of          Amount
                         Report Category                                                                           Reports1   (In Thousands)


    1. For which no management decision has been made by the beginning
       of the reporting period. .........................................................................             1               $109
    2. Which were issued during the reporting period. ..................................                              4        $13,000,168
    3. Subtotals (Item 1 plus Item 2) ...............................................................                 5        $13,000,277
    4. For which a management decision was made during the reporting
       period.
        • Dollar value of recommendations that were agreed to by
          management
          - Based on proposed management action ........................................                              2                $70
          - Based on proposed legislative action .............................................                        12       $13,000,000
        • Dollar value of recommendations that were not agreed to by
          management ......................................................................................           1               $109
    5. For which no management decision has been made by the end of the
       reporting period. (Item 3 minus Item 4) ...............................................                        1                $98
    6. For which no management decision was made within six months of
       issuance. ...............................................................................................      0                  $0

1
    See Appendix IV for identification of audit reports involved.
2
    One report (Reference No. 2001-30-148) contains an estimated five-year benefit of $13 billion which represents the amount of
    interest that could be avoided if all overpayments are timely refunded by IRS within 45 days. Therefore, the actual interest savings
    would be reduced by an indeterminable amount for any refunds that are not timely processed.




32 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Reports With Additional Quantifiable
Impact on Tax Administration
In addition to questioned costs and funds put to better use, OA has identified additional measures
that demonstrate the value of audit recommendations on tax administration and business
operations. These issues are of interest to IRS and Treasury executives, Congress, and the
taxpaying public, and are expressed in quantifiable terms to provide further insights to the value
and potential impact of OA’s products and services. Including this information also advances
adherence to the intent and spirit of GPRA.


                           Definitions of Additional Measures

     Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) that is
     granted to taxpayers by law, regulation, or IRS policies and procedures. These rights most
     commonly arise in the performance of filing tax returns, paying delinquent taxes, and
     examining the accuracy of tax liabilities. The acceptance of claims for and issuance of
     refunds (entitlements) are also included in this category, relating to instances when
     taxpayers have a legitimate assertion of overpayments of tax.


     Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need
     for, frequency of, or time spent on contacts, record keeping, preparation, or costs to comply
     with tax laws, regulations, and IRS policies and procedures.


     Increased Revenue or Revenue Protected: Assessment or collection of additional taxes
     (increased revenue), or proper denial of claims for refund, including recommendations that
     prevent erroneous refunds or efforts to defraud the tax system (revenue protection).


     Taxpayer Privacy and Security: Protection of taxpayer financial and account information
     (privacy). Processes and programs that provide protection of tax administration, account
     information, and organizational assets (security).


     Protection of Resources: Safeguarding human and capital assets, used by or in the
     custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
     misuse, overpayment, or degradation. This measure will often be expressed as a value of
     the entity or program affected by the issue(s) described in the audit report.


     Reliability of Management Information: Ensuring the accuracy, validity, relevance, and
     integrity of data, including the sources of data and the applications and processing thereof,
     used by the organization to plan, monitor, and report on its financial and operational
     activities. This measure will often be expressed as an absolute value (i.e., without regard to
     whether a number is positive or negative) of overstatements or understatements of amounts
     recorded on the organization’s documents or systems.



                                                              Appendix I - Office of Audit’s Statistical Reports   33
Reports With Additional Quantifiable
Impact on Tax Administration
(continued)
The number of taxpayer accounts, hours, and dollar values shown in this chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or subsequent
business activities applicable from the dates of implementation. Also, a report may have issues
that impact more than one outcome measure category.

      Reports With Additional Quantifiable
           Impact on Tax Administration                                  Number
                 (4/1/01 - 9/30/01)                                    of Reports   Number of      Number
                                                                           in       Taxpayer         of         Dollar Value
            Outcome Measure Category                                   Category1    Accounts        Hours    (In Thousands)      Other6


     1. Taxpayer Rights and Entitlements at Risk .........                15        14,400,702 2                     $64,140           7


     2. Reduction of Burden on Taxpayers ....................              7          121,200 3                    $247,800            8


     3. Increased Revenue or Revenue Protected ........                   19           417,500                  $13,325,7174           9


     4. Taxpayer Privacy and Security ...........................          0
     5. Protection of Resources ....................................       0
     6. Reliability of Management Information ..............               8         2,806,741 5                      $2,682          10




Explanatory Notes
1
     See Appendix IV for identification of audit reports involved.
2
     One report (Reference No. 2001-10-147) consisted of 5,715,230 individuals (taxpayer, spouses and representatives) that did not
     receive required annual notices and 8,660,605 taxpayer accounts that did not receive required penalty and interest statements. For
     another report (Reference No. 2001-10-103) IRS management did not concur that the statute of limitations for 206 accounts with
     missing documentation could potentially be invalid. A third report (Reference No. 2001-40-161) included 2,465 taxpayers with
     misapplied payments as part of the understated inventory reported as a “Reliability of Management Information” outcome measure.
3
     In one report (Reference No. 2001-40-102) IRS management did not concur with TIGTA’s calculation of the 8,000 taxpayers
     unnecessarily burdened.
4
     In one report (Reference No. 2001-10-103), IRS management stated that additional collection action on liabilities of $289 million with
     reduced collection statute expiration dates may be limited because of the age of the accounts and the lack of collection options. For
     four reports (Reference Nos. 2001-40-102, 2001-40-185, 2001-40-150, and 2001-40-151), IRS management did not concur with
     TIGTA’s calculation of the increased revenue of $1.174 billion for 365,381 taxpayers. In another report (Reference No. 2001-30-132),
     an undeterminable amount of the $2.2 billion collected through backup withholding may be refunded when tax returns are
     subsequently filed.
5
     In one report (Reference No. 2001-30-117) IRS management stated that the TIGTA overstated the number of accounts not identified
     by their principal business activity by 574,535 (of 2.8 million accounts reported).
6
     Some reports contained “Other” quantifiable impacts besides the number of taxpayer accounts, number of hours, and dollar value.
     These outcome measures are described in the footnotes below.
7
     Other measures of Taxpayer Rights and Entitlements consist of 3,623 enforcement employees whose evaluations or related
     supervisory documentation could contain violations concerning the use of enforcement statistics.
8
     Other measures of taxpayer burden consist of 1.3 million taxpayer calls not answered. IRS management did not agree that they
     could have answered these additional calls.
9
     Other measures of increased revenue or revenue protection consist of 417,000 information returns that did not include the payee’s
     taxpayer identification number and 204,000 information returns that would be included in the IRS’ matching program.
10
     Other measures of reliability of management information consist of 316 Offers in Compromise not correctly described on the
     management information system, 191 complaints and allegations that could not be located or the management information was not
     current or consistent, and 116,180 returns with inaccurate “Personal Service Corporation indicators.”


34 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                         Appendix II - Office of Investigation’s
                                            Statistical Reports
Investigative Results
April 1, 2001 - September 30, 2001



 Investigations Opened and Closed

 Total Investigations Opened                                                                    2,181
 Total Investigations Closed                                                                    2,322




 Financial Accomplishments

 Embezzlement/Theft Funds Recovered                                                     $1,260,218
 Court Order Fines, Penalties and Restitution                                           $6,910,528
 Out-of-Court Settlements                                                                            $0




                                                Appendix II - Office of Investigation’s Statistical Reports   35
Investigative Results
April 1, 2001 - September 30, 2001
(continued)

    Status of Closed Criminal Investigations

                                                                                      Employee      Non-Employee                TOTAL

    Criminal Referrals1
        Referred - Accepted for Prosecution ....................                          20                 120                  140
        Referred - Declined for Prosecution .....................                        312                 374                  686
        Referred - Pending Prosecution Decision ...........                               31                 100                  131

                                 TOTAL CRIMINAL REFERRALS                                363                 594                  957

    No Referrals ..............................................................          785                 579                1,364
1
    Criminal referrals include both Federal and state dispositions.




    Criminal Dispositions 2

                                                                                      Employee      Non-Employee                TOTAL

        Guilty ....................................................................        7                   16                   23
        Nolo-Contendere .................................................                  0                     0                    0
        Pre-trial Diversion ................................................               9                   25                   34
        Deferred Prosecution3 ..........................................                   3                     1                    4
        Not Guilty .............................................................           0                     1                    1
        Dismissed4 ...........................................................             2                   10                   12

                              TOTAL CRIMINAL DISPOSITIONS                                 21                   53                   74
2
    Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior reporting
    periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal Investigations table.
3
    Generally, in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain conditions
    imposed by the court. Upon defendant’s completion of the conditions, the court dismisses the case. If the defendant fails to fully
    comply, the court reinstates prosecution of the charge.
4
    Court dismissed charges.




36 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Investigative Results
April 1, 2001 - September 30, 2001
(continued)

    Administrative Status and Disposition on Closed TIGTA Investigations 1

                                                                                                                         TOTAL

    Removed, Terminated or Other .........................................................................                 115
    Suspended/Reduction in Grade ........................................................................                    40
    Oral or Written Reprimand/Admonishment .......................................................                         103
    Closed - No Action Taken ..................................................................................            211
    Clearance Letter Issued ....................................................................................             79
    Employee Resigned Prior to Adjudication.........................................................                         50

                                                    TOTAL ADMINISTRATION DISPOSITIONS                                      598
1
    Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively in prior
    reporting periods and does not necessarily relate to the investigations closed in the Investigations Open and Closed table.




                                                                               Appendix II - Office of Investigation’s Statistical Reports   37
Investigative Results
April 1, 2001 - September 30, 2001
(continued)

    Complaints/Allegations Received by TIGTA

                                                                                                              TOTAL

    Complaints Against IRS Employees ........................................................                 1,737
    Complaints Against Non-Employees .......................................................                  2,165

                                          NUMBER OF COMPLAINTS/ALLEGATIONS                                    3,902




    Status of Complaints/Allegations Received by TIGTA

                                                                                                              TOTAL

    Investigations Initiated ..............................................................................   1,600
    In Process Within TIGTA1 .........................................................................          511
    Referred to IRS for Action ........................................................................         294
    Referred to IRS for Information Only .......................................................                742
    Referred to a Non-IRS Entity2 ..................................................................             18
    Closed with No Referral ...........................................................................         705
    Closed with All Actions Completed ..........................................................                 32

                                                                           TOTAL COMPLAINTS                   3,902

1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: IRS made 113 referrals to TIGTA that would more appropriately be handled by IRS and, therefore, were returned to IRS. These
      are not included in the total complaints shown above.




38 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Allegations of
Misconduct Against
IRS Employees

The following three tables consist of allegations of misconduct against individual IRS employees
who were recorded in the IRS Automated Labor and Employee Relations Tracking System
(ALERTS). Employee misconduct cases investigated by TIGTA have been extracted from the next
two tables and were and reported on the previous two pages. IRS management conducted the
inquiries into the cases reflected in these tables.


    Allegations of Employee Misconduct Investigated by IRS Management 1

                                                                                                     Case Type
                                                                                                   Employee Tax
                                                                            Administrative2          Matter 3                   Total

    Inventory on April 1, 2001 ..................................                1,222                    1,173                 2,395
    Add: Cases Received .........................................                2,989                    1,197                 4,186
    Less: Cases Closed ...........................................             (3,266)                  (1,501)               (4,767)
    Duplicates ..........................................................           (36)                  (142)                  (178)
    Not Misconduct ..................................................                 (6)                     (0)                   (6)
    Total Closures ....................................................        (3,308)                  (1,643)               (4,951)
    Inventory on Sept. 30, 2001 ...............................                     903                      727                1,630
1
    Because of potential duplication of taxpayer complaints tracked in IRS’ various management information systems, IRS is unable to
    report on the total number of taxpayer complaints received.
2
    Administrative - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
    Employee Tax Matter - Any matter that becomes of official interest involving an employee’s tax compliance.




                                                                              Appendix II - Office of Investigation’s Statistical Reports   39
Allegations of
Misconduct Against
IRS Employees
(continued)

  Disposition of Employee Misconduct Cases Investigated by IRS
  Management

                                                                                     Employee Tax
  Disposition                                                       Administrative     Matter       Total

  Removal .......................................................         93              10         103
  Separation of Probationary Employees .......                           589               7         596
  Separation of Temporary Employees ...........                             7              1           8
  Resignation/Retirement ...............................                 238              59         297
  Suspensions.................................................            99              57         156
  Reprimands ..................................................          236             287         523
  Counseling ...................................................         764             728        1,492
  Alternative Discipline ....................................             52              27          79
  Clearance .....................................................        194              19         213
  Closed Without Action ..................................               876             287        1,163
  Forwarded to TIGTA .....................................                21               0          21
  Not Otherwise Coded ...................................                 97              19         116

                                                       TOTAL           3,266            1,501       4,767




40 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Allegations of
Misconduct Against
IRS Employees
(continued)

    IRS Summary of Substantiated § 1203 Allegations 1

    1203 Violation2                                                                        Removals                Penalty Mitigated

    Seizure Without Approval .................................................                   0                             0
    False Statement Under Oath. ..........................................                       0                             0
    Constitutional & Civil Rights Issues .................................                       0                             0
    Falsifying or Destroying Records .....................................                       1                             0
    Assault or Battery .............................................................             1                             0
    Retaliate or Harass ..........................................................               0                             0
    Misuse of 6103 .................................................................             0                             0
    Failure to File Federal Tax Return ....................................                      8                            26
    Understatement of Federal Tax Liability ...........................                          0                             0
    Threat to Audit for Personal Gain .....................................                      0                             0

                                                                           TOTAL               10                             26

1
    This table reflects IRS management inquiries and TIGTA investigations.
2
    The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party appeal.

Source: IRS Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review Board records.




                                                                               Appendix II - Office of Investigation’s Statistical Reports   41
                             Appendix III - Statistical Reports - Others

Audit Reports With
Significant Unimplemented
Corrective Actions
The Inspector General Act of 1978 requires identification of significant recommendations described
in previous semiannual reports on which corrective actions have not been completed. The
following list is based on information from the IRS Office of Management Control’s automated
tracking system maintained by Treasury management officials.

                                              Report Title and Recommendation Summary
                                Projected
 Reference                     Completion     (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date        P = Plan Number)

 093602         April 1999                    The Internal Revenue Service Needs To Improve Treatment of
                                              Taxpayers During Office Audits
                                10/01/02      F-1, R-3, P-2. Require a separation of duties among auditors
                                              who identify Midwest Automated Compliance System (MACS)
                                              returns with potential tax changes, auditors who select MACS
                                              returns to be audited, and auditors who conduct the
                                              examinations.
                                12/01/01      F-1, R-4, P-2. Ensure that all MACS data discs forwarded
                                              from the MACS Development Center to district offices are
                                              properly accounted for and secured.
                                01/01/02      F-2, R-4, P-1. Clarify the Internal Revenue Manual to provide
                                              specific guidance for conducting correspondence audits in
                                              district office settings.

 094206         May 1999                      The Examination Returns Control and Integrated Data
                                              Retrieval Systems Can Be Improved to Protect Taxpayer
                                              Rights During the Audit Process
                                10/01/01      F-3, R-1, P-2. The Assistant Commissioner (Examination),
                                              with input from the Chief Information Officer, should ensure the
                                              issues are addressed to enable the Examination Returns
                                              Control System audit trail to be used to its fullest extent.




                                                                   Appendix III - Statistical Reports - Others   43
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)

 093009             June 1999                            Review of the Electronic Fraud Detection System
                                     12/01/01            F-1, R-2, P-2. Initial and periodic password changes should
                                                         be systemically enforced for the Electronic Fraud Detection
                                                         System (EFDS) application program.
                                     12/01/01            F-1, R-3, P-2. Workstation terminals should be disabled after
                                                         a selected number of failed login attempts to the EFDS
                                                         application program.
                                     12/01/01            F-1, R-4, P-2. Password change information should be part of
                                                         the EFDS application audit trail.
                                     01/01/03            F-2, R-1, P-2. Program the EFDS application trail to record all
                                                         accesses to taxpayer data.
                                     01/01/03            F-2, R-2, P-2. Design an audit trail application to record
                                                         accesses to taxpayer data through secondary sources such as
                                                         the database administrator, system query tools, or contract
                                                         vendors.
                                     01/01/03            F-3, R-1, P-2. The EFDS Project Office should work with
                                                         EFDS developers to ensure that the following programming
                                                         changes are made. The EFDS application audit reports
                                                         should be changed to include a date range field and service
                                                         center site field where applicable.
                                     07/01/03            F-3, R-4, P-2. The Chief Information Officer should complete
                                                         this assessment, taking into consideration the audit trail issues
                                                         referred to in this Memorandum of Understanding to improve
                                                         the usefulness of the EFDS application audit trail.
                                     12/01/01            F-3, R-5, P-2. Because of the sensitivity of the data
                                                         maintained on the EFDS, and the number of people who have
                                                         access to the system (with more planned in the future), the
                                                         audit trail problems referred to in the report should be included
                                                         by IRS as a Federal Managers’ Financial Integrity Act material
                                                         weakness.
                                     11/01/01            F-5, R-2, P-1. EFDS will soon undergo a new security
                                                         certification. Taking into account the audit trail and
                                                         documentation issues discussed in this report, it is
                                                         questionable whether EFDS should have received its prior
                                                         security certification. In the upcoming certification process,
                                                         Information Systems should ensure that the issues discussed
                                                         in this report are corrected, and that all other controls
                                                         necessary for a proper certification are in place and
                                                         functioning.




44 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                               Report Title and Recommendation Summary
                              Projected
Reference                    Completion        (F = Finding Number, R = Recommendation Number,
Number          Issued          Date           P = Plan Number)


199920063    August 1999                       The General Controls Environment Over the Internal Revenue
                                               Service’s Unisys 2200 Systems Can Be Improved
                                               The Chief Information Officer should:
                             07/01/02          F-2, R-1, P-1. Standardize control settings for files common to
                                               the Unisys 2200 production mainframes.
                             07/01/02          F-3, R-1, P-1. Ensure all improperly owned files are identified
                                               and assigned an owner present on the Unisys 2200 system at
                                               each service center, with the exception of files required to be
                                               unowned, prior to movement of that service center’s
                                               mainframe to the consolidated Unisys 4800 environment.
                             P-2:   07/01/02   F-3, R-2, P-2, P-3, P-5, P-6. Institute a policy requiring that all
                             P-3:   01/01/03   files owned by users being removed from the Unisys 2200 and
                             P-5,   02/01/02   Unisys 4800 systems either be deleted or assigned to a user
                             P-6,   02/01/02   present on the system.
                             07/01/02          F-4, R-1, P-1. Examine the possibility of tracking individual user
                                               actions while using the MASTER user-id on the Unisys 4800
                                               system and, if possible, implement this feature as soon as
                                               feasible.
                             01/01/02          F-6, R-1, P-1. Ensure that all required C-2 documentation is
                                               prepared for the Unisys 4800.
                             07/01/02          F-6, R-2, P-1. Develop and maintain a security policy for the
                                               Unisys 4800.
199910072   September 1999                     The Internal Revenue Service Needs to Improve Compliance
                                               With Legal and Internal Guidelines When Taking Taxpayers’
                                               Property for Unpaid Taxes
                             P-1: 10/01/01     F-2, R-3, P-1, P-2, P-3. Ensure that Collection management
                             P-2: 10/01/01     and other appropriate management officials verify that all
                             P-3: 10/01/01     applicable items on the pre-seizure checklist are completed prior
                                               to approving the seizure and that all applicable items on the
                                               seizure and post-seizure checklists under development are
                                               completed.
199920068   September 1999                     The Service Center Mainframe Consolidation Project Has
                                               Made Significant Progress, But Project Execution and
                                               Administration Risks Remain
                              12/01/01         F-2, R-3, P-1. IRS management should ensure that proper
                                               procedures are followed. The Service Center Mainframe
                                               Consolidation Project Office should establish full-time
                                               Government Task Managers and support staff on-site to
                                               monitor and verify deliveries, hours worked by the contractor,
                                               and travel taken by the contractor.
2000-30-015 December 1999                      Consolidated Report on Opportunities for the Internal Revenue
                                               Service to Improve Service to Business Taxpayers
                              10/01/01         F-2, R-1, P-1. Expand the current Federal Tax Deposits alert
                                               reengineering effort to re-evaluate the cost effectiveness of the
                                               Program.




                                                                     Appendix III - Statistical Reports - Others    45
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2000-10-033      February 2000                          The Internal Revenue Service Can Further Reduce the Burden
                                                         on Taxpayers Who Disagree With Proposed Assessments
                                     10/01/02            F-1, R-1, P-1. Send letters of proposed changes (30-Day
                                                         Report) via certified mail, with return receipt requested, when
                                                         taxpayers do not respond to the initial contact letter.
 2000-10-047       March 2000                            The Internal Revenue Service Needs to Strengthen Its
                                                         Operating Controls for the Tax-Exempt Bond Program
                                     12/31/01            F-2, R-2, P-2. IRS should develop instructions for the
                                                         processing of late filed tax-exempt bond returns.
 2000-10-058       March 2000                            The Internal Revenue Service Needs to Improve Its
                                                         Compliance With Procedures When Processing Requests for
                                                         Information Under the Freedom of Information Act
                                     11/01/02            F-3, R-2, P-1. IRS Office of Governmental Liaison and
                                                         Disclosure should obtain controlled access to the IRS’ tax
                                                         account information in the National Office of Governmental
                                                         Liaison and Disclosure to research the availability of the
                                                         requested records.
 2000-30-057       March 2000                            Opportunities Exist for Further Reducing Erroneous Fuel Tax
                                                         Credits
                                     10/01/01            F-1, R-1, P-1. IRS needs to emphasize the importance of
                                                         checking prior year returns for fuel tax credits, when closing
                                                         current year fuel tax cases with an adjustment, and to
                                                         establish management controls to ensure that the requirement
                                                         is followed.
                                     10/01/01            F-2, R-1, P-1. The Assistant Commissioner (Customer
                                                         Service) needs to provide professional preparer organizations
                                                         with appropriate educational materials on the tax regulations
                                                         relating to tax credits for undyed diesel fuel used by farmers.




46 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                        Report Title and Recommendation Summary
                            Projected
Reference                  Completion   (F = Finding Number, R = Recommendation Number,
Number          Issued        Date      P = Plan Number)


2000-30-059   March 2000                The Internal Revenue Service Can Improve the Estate Tax
                                        Collection Process
                            07/01/02    F-1, R-1, P-1. Collection and service center management
                                        should assign the responsibility for determining whether a
                                        bond or tax lien should be secured to the service center
                                        employees who process the installment agreements, instead
                                        of to the district offices.
                            09/01/01    F-1, R-2, P-2. Service center management should review and
                                        approve all requests for payment extensions. The review
                                        should ensure the estate has demonstrated reasonable cause
                                        before granting the payment extension.
                            11/01/02    F-2, R-1, P-1. Collection management should instruct
                                        managers and employees to conduct a 100 percent review of
                                        all current estate cases to ensure active tax liens are input to
                                        the Automated Lien System (ALS), tax liens and lien fees are
                                        properly reflected on the taxpayer accounts, and all tax liens
                                        are released on accounts that have no tax obligation.
                            09/01/01    F-2, R-2, P-1. Collection and Information Systems
                                        management should develop procedures to periodically
                                        reconcile tax liens on the ALS with information shown on the
                                        taxpayer accounts.
                            11/01/02    F-2, R-3, P-1. Collection management should clarify
                                        procedures to employees that all estate tax liens should be
                                        recorded on the ALS.
                            02/01/02    F-3, R-1, P-1. Collection and Information Systems
                                        management should coordinate to review the collection statute
                                        abatement programming for accurate Collection Statute
                                        Expiration Date (CSED) calculations.
                            07/01/02    F-3, R-3, P-1. Collection and service center management
                                        should ensure all estate tax accounts with collection statute
                                        abatements are manually reviewed to verify or correct CSED
                                        calculations.
                            01/01/03    F-3, R-4, P-1. Collection and Information Systems
                                        management should coordinate to develop a procedure to
                                        identify accounts with multiple assessments and collection
                                        statute dates to ensure partial abatements occur when the
                                        earliest CSED is reached.
2000-40-045   March 2000                Taxpayers and the Internal Revenue Service Experienced
                                        Problems With Some New Tax Provisions
                            01/01/02    F-2, R-1, P-1. The Chief Operations Officer should ensure that
                                        computer programming necessary to identify taxpayer errors
                                        related to two tax law provisions are completed by the 2001
                                        filing season.




                                                             Appendix III - Statistical Reports - Others   47
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2000-40-055       March 2000                            The Internal Revenue Service Needs to Improve Its
                                                         Coordinated Oversight of the Substitute for Return Process
                                                         The Chief Operations Officer should:
                                     10/01/01            F-1, R-1, P-1. Establish uniform policies and procedures to
                                                         ensure coordination of IRS efforts among the functions
                                                         processing Substitute for Return (SFR) accounts.
                                     10/01/02            F-2, R-1, P-1. Coordinate the development of a process to
                                                         monitor the future filing compliance of taxpayers with SFR tax
                                                         assessments regardless of which function processed the
                                                         account.
                                     01/01/02            F-2, R-2, P-1. Coordinate the design of a process to profile
                                                         SFR tax assessments and their resolution regardless of
                                                         processing function.
 2000-40-063        May 2000                             Increased Attention Is Needed to Ensure Timely, Accurate
                                                         Determinations on Innocent Spouse Claims for Relief
                                                         IRS should:
                                     01/01/02            F-1, R-1, P-3. Set goals and standards for the Innocent
                                                         Spouse Program.
                                     01/01/02            F-2, R-1, P-2. Design and implement a system of internal
                                                         controls that addresses the quantity, cost, and timeliness of the
                                                         Innocent Spouse Program to complement the existing internal
                                                         controls over the quality of the Program.
 2000-40-069        May 2000                             Internal Revenue Service’s Process for Controlling Filing
                                                         Season Computer Programming Changes Does Not Ensure
                                                         Critical Changes Are Effectively Implemented
                                     10/01/01            F-2, R-1, P-3. Develop written criteria for prioritizing Requests
                                                         for Information Services (RIS) to ensure the RIS inventory is
                                                         prioritized correctly for the filing season.
 2000-30-088        June 2000                            Millions of Dollars in Internal Revenue Service Excess
                                                         Collections Accounts Could Be Credited to Taxpayers
                                     10/01/01            F-1, R-1, P-2. The Customer Service function should use
                                                         TIGTA developed computer-matching techniques to identify
                                                         and, where appropriate, transfer payments from the Excess
                                                         Collections Accounts to the taxpayers’ Masterfile accounts.
                                     P-2: 11/01/01       F-2, R-1, P-2, P-3, P-4. The Chief Operations Officer needs to
                                     P-3: 11/01/01       coordinate education efforts for employees handling these
                                     P-4: 01/01/02       accounts and develop strategies for increasing taxpayer and
                                                         practitioner awareness of the law on the statute of limitations
                                                         for refunding and crediting payments related to overdue tax
                                                         returns.




48 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                       Report Title and Recommendation Summary
                           Projected
Reference                 Completion   (F = Finding Number, R = Recommendation Number,
Number         Issued        Date      P = Plan Number)


2000-20-092   June 2000                Certifying the Security of Internal Revenue Service Computer
                                       Systems Is Still a Material Weakness
                                       Information Systems Management should:
                           03/01/02    F-1, R-1, P-1. Place more emphasis on building security
                                       controls into new information systems. To ensure this
                                       happens, IRS management should not authorize the
                                       implementation of any new system until controls are sufficient
                                       and the system has the required security certification and
                                       accreditation.
                           03/01/02    F-1, R-2, P-1. For systems that have already been
                                       implemented, additional emphasis should be placed on timely
                                       certification and accreditation. Also, ensure that funds
                                       continue to be allocated for contractor support during the
                                       certification process and consideration should be given to
                                       increasing this allocation in order to get systems certified as
                                       soon as possible.
                           03/01/02    F-1, R-3, P-1. Consider increasing the human resources
                                       within IRS devoted to certifying and accrediting the security
                                       features of information systems.
                           03/01/02    F-1, R-4, P-1. Ensure that IRS’ certification process includes
                                       follow-ups with the accrediting executives’ prior to the
                                       expiration of their systems security certification to ensure that
                                       they are aware that a new certification and accreditation is
                                       required.
                           03/01/02    F-1, R-5, P-1. Ensure that all functional executives for
                                       individual systems are fully aware of the overall certification
                                       and accreditation process.
                           03/01/02    F-1, R-6, P-1. Centralize the process for identifying and
                                       tracking all information systems requiring certification and
                                       accreditation.
                           03/01/02    F-2, R-1, P-1. Ensure that IRS’ certification process includes
                                       follow-ups with the accrediting executives to ensure that
                                       necessary information relevant to the official accreditation is
                                       provided and to educate them on the importance of providing
                                       this information.




                                                             Appendix III - Statistical Reports - Others   49
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2000-20-094        June 2000                            A Comprehensive Program for Preventing and Detecting
                                                         Computer Viruses Is Needed
                                                         The official responsible for the virus program should:
                                     10/01/01            F-2, R-1, P-1. Develop and implement IRS-wide procedures
                                                         detailing the frequency and steps to be followed for reliably
                                                         updating anti-virus software on both networked and portable
                                                         notebook computers.
                                     11/01/01            F-2, R-2, P-1. Establish controls for ensuring all updates have
                                                         been successfully accomplished.
                                     10/01/01            F-3, R-1, P-1. Develop a system for gathering information to
                                                         help analyze and monitor the effectiveness of the program’s
                                                         virus detection and prevention activities.
                                     10/01/01            F-4, R-1, P-1. Strengthen procedures for ensuring that
                                                         employees comply with the Internal Revenue Manual
                                                         requirements for preparing Virus Incident Reports.
 2000-20-097        June 2000                            The Internal Revenue Service Should Improve Actions to
                                                         Protect Its Critical Infrastructure
                                     10/01/01            F-1, R-2, P-1. The Chief Infrastructure Assurance Officer
                                                         (CIAO) should ensure that vulnerabilities to all mission
                                                         essential assets, including facilities, systems, applications,
                                                         personnel, and data, are assessed during future security
                                                         reviews. In addition, the CIAO should evaluate the
                                                         interdependencies inherent in IRS’ mission essential activities.
 2000-20-099        June 2000                            Significant Risks Need to Be Addressed to Ensure Adequate
                                                         Oversight of the Systems Modernization Effort
                                     09/30/01            F-1, R-3, P-1. Finalize and fully implement Quality Assurance
                                                         policies and procedures throughout the organization.
                                     09/01/01            F-2, R-1, P-1. Develop a staffing plan for the Program
                                                         Management Office (PMO) to ensure that the PMO is
                                                         adequately staffed and the personnel have proper training.
                                     12/31/01            F-2, R-4, P-1. Develop a back-up plan for key personnel to
                                                         ensure that the PMO is adequately staffed and the personnel
                                                         have proper training.
                                     12/31/01            F-2, R-5, P-1. Develop policies and procedures to regularly
                                                         update the staffing plan, skills analysis, training plan, and
                                                         back-up plan for key personnel.
                                     10/01/01            F-3, R-3, P-1. Assess the PRIME contractor’s processes to
                                                         ensure that performance monitoring data being provided to
                                                         IRS are complete and accurate.
 2000-30-111       August 2000                           Improvements Are Needed in Resolving In-Business Trust
                                                         Fund Delinquencies to Prevent Tax Liabilities From Pyramiding
                                     01/01/02            F-2, R-1, P-1. Use all collection tools, including enforcement
                                                         tools and require the filing of monthly, rather than quarterly,
                                                         returns.




50 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                            Report Title and Recommendation Summary
                                Projected
Reference                      Completion   (F = Finding Number, R = Recommendation Number,
Number            Issued          Date      P = Plan Number)


2000-30-120    August 2000                  Expanding the Electronic Tax Law Assistance Program
                                1/01/01     F-1, R-1, P-1. To meet its Electronic Tax Administration goals,
                                            IRS needs to redesign the Electronic Tax Law Assistance
                                            (ETLA) program to leverage technology that will provide
                                            enhanced access to tax information, maximize efficiency, and
                                            improve electronic customer service.
                                09/01/02    F-2, R-1, P-1. To effectively administer the rapid growth of
                                            taxpayer demand, economically use resources, and design
                                            future enhancements of the program, IRS needs to fully
                                            commit to the ETLA program by converting it from a long-term
                                            research project to a fully supported independent function.
                                12/31/02    F-3, R-1, P-1. Until there are technological changes and an
                                            organizational commitment, IRS needs to delay the marketing
                                            of the ETLA program. In the interim, IRS should expand the
                                            ETLA program to additional call sites to process the ever-
                                            increasing taxpayer demand for this electronic service while
                                            reducing the need to use more expensive Compliance function
                                            personnel.
2000-30-130   September 2000                Opportunities Exist to Enhance the International Field
                                            Assistance Specialization Program
                                            The Commissioner, Large and Mid-Size Business Division,
                                            should:
                                04/30/02    F-2, R-1, P-1. Improve the management information system
                                            by linking the International Field Assistance Specialization
                                            Program (IFASP) indicator to specific issues listed in the
                                            International Case Management System.
                                06/01/03    F-2, R-2, P-2. Ensure international examiners gain greater
                                            access to IRS’ Intranet so that the IFASP can accumulate and
                                            disseminate more information electronically, including an
                                            electronic referral form for IFASP assistance.
2000-10-145   September 2000                Improvements Are Needed to Ensure Control and
                                            Accountability Over Automated Data Processing Assets
                                10/01/01    F-1, R-1, P-1. The Director, Enterprise Operations, should
                                            take appropriate action on the recommendation made by the
                                            Chief, Transmittal and Control Branch, to conduct quality
                                            reviews prior to forwarding the Automated Data Processing
                                            Property Certifications to the Chief Information Officer (CIO)
                                            for final approval and certification to the Commissioner.
                                05/01/02    F-2, R-1, P-1. The CIO, together with senior executives from
                                            other affected IRS organizational components, should re-
                                            evaluate resource commitments needed to successfully
                                            implement the Single Point Inventory Function and elevate to
                                            the Deputy Commissioner Operations for resolution any
                                            staffing shortages that imperil successful implementation.
                                10/01/02    F-3, R-1, P-2. The Asset Management Modernization Project
                                            Office Manager should ensure the Single Point Inventory
                                            Function Standard Operating Procedures are updated to
                                            include accountability and identification of internal use
                                            software and documentation for annual physical inventories.



                                                                 Appendix III - Statistical Reports - Others   51
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2000-30-146     September 2000                          Opportunities Exist to Identify Unreported Taxes from
                                                         Employer’s Quarterly Federal Tax Returns
                                     P-3: 02/01/02       F-1, R-1, P-3, P-4. TIGTA recommended that the
                                     P-4: 10/01/01       Commissioners of the Small Business/Self-Employed Division,
                                                         and Large and Mid-Size Business Division, and the Chief,
                                                         Criminal Investigation, increase Employer’s Quarterly Tax
                                                         Return (Form 941) compliance efforts.
 2000-30-154     September 2000                          Significant Improvements Are Needed in Processing Gift Tax
                                                         Payments and Associated Extensions to File
                                     01/01/02            F-1, R-1, P-1. The Assistant Commissioner (Forms and
                                                         Submission Processing) should require that all balance due
                                                         notices generated for gift tax accounts be reviewed. Tax
                                                         examiners should be instructed to review the taxpayers’
                                                         corresponding individual income tax and gift tax accounts to
                                                         determine if the taxpayers’ gift tax payments and extensions
                                                         were correctly processed.
 2000-20-158     September 2000                          Additional Actions Are Needed to Strengthen the Development
                                                         and Enforcement of the Enterprise Architecture
                                     10/01/01            F-5, R-2, P-1. The Chief Information Officer should establish a
                                                         waiver process to approve minor deviations from the
                                                         established architecture standards.
 2000-30-162     September 2000                          The Internal Revenue Service Needs to Better Address
                                                         Bankruptcy Automatic Stay Violations
                                                         The Assistant Commissioner (Collection) should:
                                      2/01/02            F-1, R-2, P-1. Provide additional computer programming
                                                         enhancements to improve the value of litigation transcripts.
                                     04/01/02            F-1, R-5, P-1. Provide consistent guidelines to the SPf units
                                                         on how to notify the Examination function that the taxpayer is
                                                         in bankruptcy.
                                     P-1: 02/01/02       F-2, R-1, P-1, P-2. Request that the Automated Insolvency
                                     P-2: 02/01/02       System be reprogrammed so that the actual receipt date of the
                                                         case can be input into the system to provide management with
                                                         more accurate data on timeliness of input of new case
                                                         information.
                                     P-1: 02/01/02       F-2, R-2, P-1, P-2. Ensure that all employees review the
                                     P-2: 02/01/02       Potentially Invalid Taxpayer report and resolve all cases
                                                         promptly to ensure timely posting of the bankruptcy to the
                                                         taxpayer’s account.




52 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                           Report Title and Recommendation Summary
                               Projected
Reference                     Completion   (F = Finding Number, R = Recommendation Number,
Number           Issued          Date      P = Plan Number)


2001-10-001   October 2000                 The National Taxpayer Advocate Can Improve the Service
                                           Provided to Taxpayers
                                           The National Taxpayer Advocate should:
                               10/01/01    F-1, R-1, P-1. Require that quality review results be used to
                                           identify national training needs and emphasis areas.
                               10/01/01    F-1, R-2, P-1. Require Taxpayer Advocates in local offices and
                                           IRS Centers to report quarterly on the corrective actions taken
                                           to address quality standards that warrant improvement.
2001-30-006   October 2000                 Management Advisory Report: Strategic Planning for Toll-Free
                                           Telephone Operations Has Made Significant Progress, But
                                           Further Improvements Are Needed
                               1/01/01     F-2, R-1, P-2. To effectively manage their annual plans to help
                                           achieve strategic goals, the Wage and Investment (W&I) and
                                           Small Business/Self-Employed (SB/SE) Divisions and the Joint
                                           Operations Center (JOC) need to develop tracking systems
                                           that set specific management accountability and clearly
                                           defined timetables, have the ability to track costs, and tie into a
                                           quality measurement process.
                               01/01/01    F-2, R-2, P-2. The W&I and SB/SE Divisions and the JOC
                                           need to develop more detailed multi-year plans, as well as
                                           annual plans, that identify the specific impact that planned
                                           actions are expected to have on the stated strategic plan
                                           goals.
2001-30-014   November 2000                The Internal Revenue Service Does Not Effectively Use the
                                           Trust Fund Recovery Penalty as a Collection Enforcement Tool
                                           The Assistant Commissioner (Collection) should:
                               10/01/01    F-1, R-1, P-1. Reassess the time frames for making the trust
                                           fund recovery penalty decision.
                               12/01/01    F-1, R-3, P-1. Reinforce the need for group managers to
                                           review repeater trust fund cases and consider the timely use
                                           of the trust fund recovery penalty.
                               12/01/01    F-1, R-4, P-1. Reinforce to group managers the need to
                                           assert the trust fund recovery penalty against all applicable
                                           responsible officers.
                               12/01/01    F-1, R-5, P-1. Make programming changes to the Automated
                                           Trust Fund Recovery System to ensure that delinquent tax
                                           returns are addressed when making trust fund recovery
                                           penalty calculations.
2001-40-008   November 2000                Electronic Returns Were Processed Effectively
                               12/01/01    F-2, R-1, P-4. Develop national standards, goals, and
                                           procedural guidance to ensure consistent and effective
                                           customer service is provided by all processing site Help
                                           Desks.




                                                                 Appendix III - Statistical Reports - Others   53
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2001-20-016     November 2000                           Employees’ Extensive Personal Use of the Internet Should Be
                                                         Controlled
                                                         The Chief Information Officer should:
                                     11/01/01            F-1, R-2, P-1. Mandate that all Internet-related activity logs
                                                         from IRS firewall and proxy servers are retained and
                                                         periodically reviewed to identify inappropriate accesses.
                                     0/01/01             F-1, R-3, P-1. Augment the vendor’s blocking criteria list with
                                                         other known inappropriate sites identified during monitoring
                                                         efforts or from referrals.
                                     P-2: 11/01/01       F-1, R-4, P-2, P-3, P-4. Consider the impact on IRS resources
                                     P-3: 10/01/01       prior to deciding to implement a “limited personal use” Internet
                                     P-4: 11/01/01       policy.
 2001-30-019     November 2000                           Letter Report: More Small Corporate Taxpayers Can Benefit
                                                         from the Alternative Minimum Tax Exemption Provision
                                     P-7: 11/01/01       F-1, R-1, P-7, P-8. The National Director, Education, Walk-In
                                     P-8: 11/01/01       and Correspondence Improvement should issue a public
                                                         announcement to taxpayers to emphasize the alternative
                                                         minimum tax exemption for qualifying small corporations.
 2001-10-028     December 2000                           The Tax Exempt and Government Entities Division Needs to
                                                         Improve the Oversight Process for Compliance Project
                                                         Examination Activities
                                                         The Tax Exempt and Government Entities Division should:
                                     05/31/01            F-1, R-1, P-1. Revise its operating procedures to require that
                                                         compliance project files include clear justifications for initiating
                                                         the projects to the Examination strategies outlined in the
                                                         annual work plan.
                                     05/31/01            F-1, R-2, P-1. Remind its staff of the procedural requirements
                                                         for obtaining approval on compliance projects from either the
                                                         Area Manager or the Director, Exempt Organizations
                                                         Examinations.
                                     05/31/01            F-2, R-1, P-1. Revise its procedures to ensure that classifiers
                                                         record the reason for closing a case without examination in the
                                                         case file.




54 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                              Report Title and Recommendation Summary
                               Projected
Reference                     Completion      (F = Finding Number, R = Recommendation Number,
Number           Issued          Date         P = Plan Number)


2001-10-026   December 2000                   Additional Management Actions Are Needed to Ensure the
                                              Timely and Successful Modernization of the Tax Exempt and
                                              Government Entities Division
                              P-1: 09/30/01   F-3, R-1, P-1, P-2. Ensure that the Program Management
                              P-2: 10/01/02   function identifies and monitors the risks associated with Tax
                                              Exempt and Government Entities (TE/GE) Division core
                                              processes that could result in disruptions to customer service.
                                              Also, Program Management should closely monitor all other
                                              TE/GE Division workaround processes to ensure that
                                              permanent solutions are in place and working as intended.
                               03/31/01       F-4, R-2, P-2. Ensure that revised procedures for the transfer
                                              of work to the new organizational elements are fully developed
                                              and applied by the field managers.
                               12/31/01       F-5, R-2, P-1. Enhance the Service Level Agreement with the
                                              Information Systems organization to ensure the TE/GE
                                              Division receives sufficient support from the IS organization
                                              and establish a practice to resolve issues related to non-
                                              performance.
2001-40-024   December 2000                   The Program for Ensuring Compliance With Anti-Money
                                              Laundering Reporting Requirements Should Be Improved
                                              IRS Small Business/Self Employed Division should:
                               11/01/01       F-1, R-2, P-1. Expand significantly the information available to
                                              covered businesses on their Bank Secrecy Act (BSA) reporting
                                              responsibilities by developing and delivering, via creative
                                              methods (mailout, Internet, industry associations, etc.), a
                                              concise education/information package to all identified or
                                              potential BSA reporting entities.
                               10/01/01       F-2, R-2, P-1. Improve tracking of productivity and
                                              achievement of performance indicators by ensuring reliable
                                              Title 31 information is timely provided by field units.
                               06/01/02       F-1, R-7, P-1. Ensure sufficient training is provided nationwide
                                              on a timely basis.




                                                                   Appendix III - Statistical Reports - Others   55
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2001-20-022     December 2000                           Controls Over the Development of the Practitioner Secure
                                                         Messaging System Prototype Should Be Improved
                                     P-1: 10/01/01       F-1, R-1, P-1, P-2. The Core Business System Executive
                                     P-2: 10/01/01       Steering Committee should merge the Practitioner Secure
                                                         Messaging System (PSMS) and other Electronic Tax
                                                         Administration managed systems development projects with
                                                         related Business Systems Modernization projects.
                                     10/01/01            F-2, R-1, P-1. IRS should develop written instructions for
                                                         operations personnel (e.g., Customer Service, Compliance,
                                                         etc.) to ensure that they can research the stored PSMS
                                                         Prototype messages and IRS responses, including accessing
                                                         the records after the PSMS Prototype is shut down.
                                     06/01/02            F-3, R-1, P-1. The Commissioner, Wage and Investment
                                                         Division, should require the contractor to break down the total
                                                         hours worked by task on each status report, break down by
                                                         individual project the labor hours and other costs billed on
                                                         each payment voucher, report as “current” (not “cumulative”)
                                                         all costs that are included on the payment voucher with an
                                                         appropriate comment when the costs apply to another
                                                         accounting period, and report the amount billed for each
                                                         person’s current hours.
 2001-40-021      January 2001                           Additional Efforts Are Needed for Improving Revenue
                                                         Protection
                                                         The Chief, Criminal Investigation should:
                                     P-1: 10/01/02       F-1, R-1, P-1, P-2. Ensure that the Revenue Protection
                                     P-2: 10/01/02       Strategy (RPS) is a long-term strategic plan that is coordinated
                                                         among functional areas. The RPS should recognize and take
                                                         steps to defeat known fraud and abuse, as well as outline
                                                         proactive measures for attempting to eliminate potential areas
                                                         of fraud and abuse.
                                     P-1: 10/01/02       F-1, R-2, P-1, P-2. Establish measurable goals and objectives
                                     P-2: 10/01/02       to evaluate the effectiveness of the RPS. The goals and
                                                         objectives should ensure that revenue is protected and
                                                         taxpayer burden is reduced.
                                     P-1: 10/01/02       F-2, R-1, P-1, P-2. Develop a process to measure the
                                     P-2: 10/01/02       effectiveness of individual initiatives on reducing
                                                         noncompliance, until the RPS is developed and implemented.
                                                         Once developed, the RPS should also contain provisions for
                                                         measuring the effect of its components on reducing
                                                         noncompliance.




56 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                           Report Title and Recommendation Summary
                               Projected
Reference                     Completion   (F = Finding Number, R = Recommendation Number,
Number           Issued          Date      P = Plan Number)


2001-10-027   January 2001                 Improved Case Monitoring and Taxpayer Awareness Activities
                                           Can Enhance the Effectiveness of the Tax Practitioner
                                           Disciplinary Proceedings Program
                                           The Director of Practice should:
                               03/31/02    F-1, R-1, P-1. Upgrade the automated case management
                                           system to provide more timely and accurate data on case
                                           activities and the use of program resources.
                               03/31/02    F-1, R-2, P-1. Conduct an annual workload and staffing
                                           analysis to identify the staffing necessary to take prompt
                                           action on allegations of tax practitioner violations.
                               03/31/02    F-2, R-1, P-1. Provide information to the public on IRS web
                                           site and in IRS publications on how to report violations by tax
                                           practitioners.
                               03/31/02    F-2, R-2, P-1. Develop a comprehensive communications
                                           strategy to create an awareness of and expand outreach
                                           activities to taxpayers on the disciplinary proceedings program.
2001-10-040   January 2001                 Controls Over Criminal Investigation Investigative Imprest
                                           Funds Should Be Strengthened
                               01/31/02    F-2, R-2, P-1. The Chief, Criminal Investigation should work
                                           with IRS Chief Financial Officer to determine the propriety of
                                           and procedures for depositing investigative imprest funds in
                                           interest bearing checking accounts.
2001-20-043   February 2001                Electronic Signature Initiatives Could Be Better Defined and
                                           Evaluated
                                           The Commissioner, Wage and Investment Division should:
                               12/01/01    F-1, R-1, P-1. Finalize IRS requirements for the use of
                                           Personal Identification Numbers as alternative signatures for
                                           electronically filed returns based on evolving guidance and the
                                           draft IRS authentication security policy and implementation
                                           guide.
                               03/01/02    F-1, R-2, P-1. Ensure that all operational alternative signature
                                           initiatives comply with the requirements.
2001-40-048   February 2001                Letter Report: Improvements at the Lockbox Bank in Atlanta
                                           Are Needed to Better Protect Taxpayer Payments and Minimize
                                           Processing Costs
                               01/01/02    F-2, R-1, P-1. The Commissioner, Wage and Investment
                                           Division should ensure that the bank correctly sorts tax returns.




                                                                Appendix III - Statistical Reports - Others   57
                                                          Report Title and Recommendation Summary
                                    Projected
 Reference                         Completion             (F = Finding Number, R = Recommendation Number,
 Number               Issued          Date                P = Plan Number)


 2001-30-052       March 2001                            Program Improvements Are Needed to Encourage Taxpayer
                                                         Compliance in Reporting Foreign Sourced Income
                                     01/01/02            F-1, R-1, P-1. The Commissioner, Large and Mid-Size
                                                         Business (LMSB) Division should ensure the prior
                                                         recommendations are implemented. Establishing a formal
                                                         program with goals, objectives, processes and measure could
                                                         help ensure that sufficient management attention is devoted to
                                                         improving the use of the Routine Exchange of Information
                                                         Program for compliance.
                                     01/01/02            F-2, R-1, P-1. The U.S. Competent Authority should identify
                                                         the highest risk foreign source income documents and use
                                                         them to coordinate with tax treaty partners to positively identify
                                                         the U.S. taxpayers involved.
                                     P-1: 01/01/07       F-3, R-1, P-1, P-2. The LMSB Division’s Director of Business
                                     P-2: 01/01/07       Systems Planning should improve systems that process data
                                                         IRS receives on foreign sourced income.
 2001-30-063       March 2001                            More Consideration Is Needed During Examinations to Identify
                                                         Potential Fraud Issues and Refer Cases to Criminal
                                                         Investigation
                                     09/01/01            F-1, R-1, P-4. The Commissioner, Small Business/Self-
                                                         Employed (SB/SE) Division needs to enhance Examination
                                                         function processes to more readily identify cases with potential
                                                         fraud issues.
                                     P-1: 10/01/01       F-1, R-2, P-1, P-2. The Commissioner SB/SE Division, and the
                                     P-2: 10/01/01       Chief, Criminal Investigation, need to continue demonstrating
                                                         to front-line employees their commitment to the Fraud Referral
                                                         Program and regularly emphasize the priority it has.
                                     10/01/01            F-1, R-4, P-1. As the SB/SE Division hires new examiners, the
                                                         Commissioner, SB/SE Division, needs to adjust the mix of
                                                         cases being examined, specifically by increasing the number of
                                                         Schedule C, F, and other source returns that have historically
                                                         yielded cases that have fraud potential.
 2001-40-059       March 2001                            Duplicate Dependent and Qualifying Child Overclaims Result
                                                         in Substantial Losses of Tax Revenue Each Year
                                     01/01/02            F-1, R-1, P-1. IRS should ensure that its duplicate dependent
                                                         detection process includes complete data.
                                     12/31/01            F-1, R-3, P-1. IRS should strengthen oversight and
                                                         accountability for the program.




58 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Statistical Reports — Others


  Access to Information
  The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of
  information available to the agency which relate to programs and operations for which the IG
  has responsibilities. There were no instances where information or assistance requested by OA
  was refused.


  Audit Reports Issued in the Prior Reporting Period With No
  Management Response
  The Inspector General Act of 1978 requires IGs to provide a summary of each audit report
  issued before the beginning of the current reporting period for which no management response
  has been received by the end of the current reporting period. As of September 30, 2001, there
  were no prior reports where management’s response was not received.


  Revised Management Decisions
  The Inspector General Act of 1978 requires IGs to provide a description and explanation of the
  reasons for any significant revised management decisions made during the reporting period.
  As of September 30, 2001, no significant management decisions were revised.


  Disputed Audit Recommendations
  The Inspector General Act of 1978 requires IGs to provide information on significant
  management decisions in response to audit recommendations, with which the IG disagrees. As
  of September 30, 2001, there were no reports where a significant recommendation was
  disputed.


  Review of Legislation and Regulations
  The Inspector General Act of 1978 requires IGs to review existing and proposed legislation and
  regulations and to make recommendations concerning the impact of such legislation or
  regulations. TIGTA’s Office of Chief Counsel reviewed 116 proposed legislation and regulations
  during the six-month reporting period.




                                                             Appendix III - Statistical Reports - Others   59
                                   Appendix IV - Audit Report Listing

Audit Reports
April 1, 2001 - September 30, 2001


 April 2001

 • 2001-OT-075   Inspector General Testimony: Before the Subcommittee on Oversight, Committee on Ways and
                 Means, U. S. House of Representatives

 • 2001-1C-058   Report on Estimating System and Internal Controls The Taxpayer Advocate Service Effectively
                 Responded to Taxpayers Requesting Relief from a Significant Hardship

 • 2001-30-056   Management Advisory Report: The Small Business/Self-Employed Division Needs to Improve
                 Taxpayer Correspondence and Availability of Management Information

 • 2001-20-071   Letter Report: The Internal Revenue Service Complied with Federal Privacy Policies Regarding
                 the Collection of Personal Information of Federal Web Sites

 • 2001-40-069   Management Advisory Report: Ineffective Administration of the Individual Taxpayer Penalty
                 Program Creates Inequity

 • 2001-20-065   Security Over Data from the Department of Health and Human Services Should Be Improved

 • 2001-20-072   Disaster Recovery Plans for Mainframe Systems at the Tennessee Computing Center Have
                 Improved, But Mid-Range Systems Still Need Attention

 • 2001-10-067   GPRA: Weaknesses in the Service Center Correspondence Examination Process Reduce the
                 Reliability of the Customer Satisfaction Survey

 • 2001-10-073   The Taxpayer Advocate Service Effectively Responded to Taxpayers Requesting Relief from a
                 Significant Hardship

 • 2001-1C-070   Audit of Selected Relocation Costs Fiscal Years 1999 and 2000 TIRNO-99-D-00001
                 (Questioned Costs: $4,194.)

 May 2001

 • 2001-OT-086   Inspector General Testimony: Implementation of the Internal Revenue Service Restructuring
                 and Reform Act of 1998

 • 2001-40-077   Letter Report: The Internal Revenue Service Continues to Give Incorrect Tax Law Information
                 in Taxpayer Assistance Centers

 • 2001-40-078   Management Advisory Report: The Notice Review Program Should Be Improved to Prevent
                 Erroneous Notices From Being Sent to Taxpayers

 • 2001-1C-066   Agreed Upon Procedures For Solicitation TIRNO-00-R-00033

 • 2001-10-068   Taxpayer Service on Lien and Levy Appeals Could Be Further Improved (Taxpayer Rights and
                 Entitlements: 238 determination letters that did not completely outline all provisions of the law.)

 • 2001-30-076   Opportunities Exist to Improve the Tip Rate Determination and Education Program

 • 2001-30-057   Management Advisory Report: Existing Compliance Function Processes Were Transferred Into
                 the New Small Business/Self-Employed Division

 • 2001-10-061   Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
                 When Seizing Property for Payment of Tax



                                                                                Appendix IV - Audit Report Listing   61
Audit Reports
April 1, 2001 - September 30, 2001 (continued)

  May 2001

  • 2001-40-079          The Performance of the Customer Service Toll-Free Telephone Program Needs Improvement to
                         Better Handle Millions of Taxpayer Calls (Taxpayer Burden: 1,300,000 taxpayer calls not
                         answered.)

  • 2001-10-087          Improvements to the Tax Exempt and Government Entities Correspondence Operation Would
                         Enhance Customer Service

  • 2001-10-082          Letter Report: Future Internal Revenue Service Strategic Plans Should Provide More
                         Information

  • 2001-1C-089          Audit of Selected Final Vouchers TIRNO-95-D-00065

  • 2001-1C-090          Agreed Upon Procedures for TIRNO-92-C-00014

  • 2001-10-091          Additional Management Actions Are Needed to Enhance Data Security When Processing User
                         Fee Payment Information

  • 2001-20-083          Further Business Results Measure Development Can Improve Management of the Information
                         Systems Organization

  • 2001-30-088          Management Advisory Report: An Evaluation of Digital Analysis as a Potential Technique for
                         Identifying Erroneous Fuel Tax Claims (Increased Revenue: $246,833 for 15 taxpayers.)

  • 2001-1C-094          Audit of Selected Final Voucher TIRNO-95-D-00068, Task Order 6

  • 2001-30-096          The Internal Revenue Service Needs to Consistently Use Special Circumstances in the Offer in
                         Compromise Program (Taxpayer Rights and Entitlements: 31 taxpayers rights not protected;
                         Reliability of Information: 316 offers not correctly described on the management information
                         system.)

  • 2001-10-085          Management Advisory Report: The Internal Revenue Service’s Implementation of the GPRA
                         During Fiscal Year 2000

  June 2001

  • 2001-10-097          The Criminal Investigation Function Substantially Accomplished Organizational Stand-Up

  • 2001-10-098          Review of the Effectiveness of Criminal Investigation’s Strategic Planning Process

  • 2001-10-093          Improvements Can Be Made to the Internal Revenue Service’s Federal Financial Management
                         Improvement Act Remediation Plan Process

  • 2001-30-080          Management Advisory Report: Concerns with the Processing of Small Business Corporation
                         Returns at the Atlanta Processing Center in July 1999

  • 2001-20-092          Controls Over the IRS’ Masterfile System Are Generally Adequate, But Some Improvement Is
                         Needed (Taxpayer Privacy and Security: 130 million returns processed in 1999 at risk.)

  • 2001-30-099          Management Advisory Report: The Internal Revenue Service Could Reduce the Number of
                         Business Tax Returns Destroyed Because of Missing Information

  • 2001-1C-104          Rate Review of Proposal TIRNO-01-R-00004

  • 2001-1C-105          Report on Audit of Specified Cost Elements for Time and Material Proposal TIRNO-01-R-00005

  • 2001-10-100          The Criminal Investigation Function Needs to Improve Its Oversight During Implementation of
                         the Webster Report Recommendations




62 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Audit Reports
April 1, 2001 - September 30, 2001 (continued)

 June 2001

 • 2001-20-101   Controls Over the Internet Gateway Should Be Improved to Better Deter and Detect External
                 Attacks

 • 2001-30-084   Stronger Actions Are Needed to Ensure Partnerships Withhold and Pay Millions of Dollars in
                 Taxes on Certain Income of Foreign Partners (Increased Revenue: $758,000,000 for
                 138 accounts.)

 • 2001-40-106   Letter Report: Our Experience in Asking the Internal Revenue Service Tax Law Questions on
                 Its Toll-Free System Was Not Satisfactory

 July 2001

 • 2001-1C-107   Incurred Cost Audit for TIR-94-0028 Fiscal Year 1997

 • 2001-1C-110   Incurred Cost Audit Fiscal Year 1998

 • 2001-10-095   Management Advisory Report: Review of Alleged Billing Discrepancies on the Exam Year 2000
                 Replacement Project (Contract TIR-NO-99-Z-0004)

 • 2001-10-113   The Internal Revenue Service Complied With Levy Requirements

 • 2001-10-116   Letter Report: The Internal Revenue Service Has Not Implemented a Process to Monitor
                 Compliance With Direct Contact Provisions

 • 2001-40-120   Letter Report: Overall, the Internal Revenue Service Processed Child and Dependent Care
                 Credits Correctly (Increased Revenue: $68,510 for 84 accounts.)

 • 2001-10-081   Management Advisory Report: No Violations of the Fair Debt Collection Practices Act Resulted
                 in Administrative or Civil Actions (Fiscal Year 2001)

 • 2001-20-111   Letter Report: Planning Efforts to Protect Critical Infrastructure Facilities Are Adequate

 • 2001-40-102   Letter Report: The Implementation of a New Audit Selection Program for Earned Income Credit
                 Filers Could Result in Significant Taxpayer Burden (Increased Revenue: $22,288,000;
                 Taxpayer Burden: 8,000 taxpayers that would have undergone an unnecessary tax audit).

 • 2001-40-121   Letter Report: The Internal Revenue Service Did Not Thoroughly Validate the Accuracy of the
                 Mortgage Interest Credits and the Related Mortgage Interest Deductions (Increased Revenue:
                 $405,000 for 2,128 taxpayers; Taxpayer Rights and Entitlements: $390,880 for 5,584 taxpayers
                 that are not correctly computing the credit).

 • 2001-40-122   Management Advisory Report: Additional Options to Collect Tax Debts Need to Be Explored

 • 2001-10-112   The Internal Revenue Service Should Continue Taking Action to Improve Compliance With the
                 Freedom of Information Act and Related Procedures (Taxpayer Rights and Entitlement:
                 2,501 FOIA, Privacy Act and I.R.C. § 6103 requests were improperly withheld or not timely
                 provided.)

 • 2001-30-123   The Internal Revenue Service Protects the Government’s Interests When Taxpayers File for
                 Bankruptcy, but Some Controls Could Be Improved (Increased Revenue: $488,000 for
                 27 taxpayers; Taxpayer Rights and Entitlements: $145,000 for 20 taxpayers in which the proof
                 of claim was overstated.)

 • 2001-20-109   Management Advisory Report: Review of Longstanding Concerns with the Treasury
                 Communications System Program

 • 2001-30-119   Controls Over the Identification and Selection of Foreign Controlled Corporations for
                 Examination Need Improvement


                                                                                Appendix IV - Audit Report Listing   63
Audit Reports
April 1, 2001 - September 30, 2001 (continued)

  July 2001

  • 2001-30-124          Letter Report: Increased Oversight Is Needed to Ensure Taxpayers Receive Credit for Millions
                         of Dollars in Excess Collections Accounts (Taxpayer Rights and Entitlements: $62,600,000 of
                         credits in Excess Collection accounts that were not properly researched.)

  • 2001-20-108          Persistent Physical Security Vulnerabilities Should Be Corrected to Better Protect Facilities and
                         Computer Resources

  August 2001

  • 2001-1C-115          TIRNO-92-C-00014 Incurred Costs Audit Fiscal Year 1999

  • 2001-10-103          Improvements Are Needed to Comply With Legal and Procedural Requirements for Collection
                         Statute Extensions and Installment Agreements (Revenue Protection: $291,305,000 for
                         7,349 accounts; Taxpayer Burden: 154 accounts with collection statute dates extended longer
                         than allowed; Taxpayer Rights and Entitlements: accounts with collection statute extensions
                         that were prohibited or not documented 56,000 accounts that should be reviewed for potential
                         statue of limitation changes.)

  • 2001-10-126          Letter Report: Full Compliance With Statutory Requirements for the Disclosure of Collection
                         Information to Joint Filers Cannot Be Determined (Fiscal Year 2001)

  • 2001-30-117          Letter Report: Additional Controls Are Necessary to Ensure that All Businesses Are Classified
                         by Their Principal Business Activity (Reliability of Information: 2,800,421 taxpayers not
                         identified by their principal business activity.)

  • 2001-30-118          A Prototype to Help New Small Business Employers Appears Effective, But More Information Is
                         Needed Before Expanding It Nationwide

  • 2001-1C-114          TIRNO-92-C-00014 Incurred Costs Audit Fiscal Year 1998

  • 2001-10-127          Full Compliance With Requirements for Notifying Taxpayers of Federal Tax Lien Filings Has Not
                         Yet Been Achieved (Taxpayer Rights and Entitlements: 11,507 taxpayers whose rights were
                         potentially violated.)

  • 2001-40-130          Letter Report: Opportunities Exist to Improve the Performance Indicators Used to Convey Toll-
                         Free Telephone Accuracy Accomplishments

  • 2001-40-138          Letter Report: The Internal Revenue Service Adequately Handled Installment Agreements on
                         Large Dollar Accounts

  • 2001-1C-128          Review of Contractor’s Accounting System

  • 2001-1C-133          Report on Audit of Specified Cost Elements for Indefinite Delivery/Indefinite Quantity Proposal
                         TIRNO-01-R-00005

  • 2001-30-125          The Pre-filing Agreement Pilot Project Was Successful, But Faces Challenges in Converting to
                         an Operational Program

  • 2001-30-131          Better GPRA Quantity Indicators Are Needed for Toll-Free Telephone Service

  • 2001-30-137          Management Advisory Report: Significant Efforts Have Been Made to Address the Large and
                         Mid-Size Business Division’s Human Capital Concerns, but a Formal Workforce Planning Model
                         Has Not Been Developed

  • 2001-10-136          Additional Management Actions Are Needed to Better Process and Safeguard Tax Exempt and
                         Government Entities Division User Fee Payments (Funds Put to Better Use: $6,493; Increased
                         Revenue: $4,050 for 9 accounts; Taxpayer Rights and Entitlements: $2,675 for 31 accounts in
                         which overpayments may have gone undetected.)


64 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Audit Reports
April 1, 2001 - September 30, 2001 (continued)


 August 2001

 • 2001-20-140    The Customer Relationship Management Examination Project Experienced Delays and
                  Increased Costs, But Lessons Learned Should Improve Future Modernization Projects

 • 2001-30-139    Management Advisory Report: The Estimated Cost of the Internal Revenue Service’s Toll-Free
                  Telephone Service Exceeds $600 Million

 • 2001-1C-135    Report on Audit of Termination for Convenience Proposal TOSNO-99-D-00006 (Questioned
                  Costs: $135,176.)

 • 2001-40-142    The Internal Revenue Service Needs to Ensure the Accuracy of Publications

 • 2001-30-132    Significant Tax Revenue May Be Lost Due to Inaccurate Reporting of Taxpayer Identification
                  Numbers for Independent Contractors (Increased Revenue: $11,000,000,000 for
                  417,000 information returns.) Note: Monetary benefits projected over a five-year period.

 • 2001-20-143    The Telecommunications Modernization Project Provided Some Benefits, But Process
                  Improvements Are Needed for Future Projects

 • 2001-20-146    The Internal Revenue Service Is Making Progress, But Is Not Yet in Full Compliance With the
                  Requirements of the Clinger-Cohen Act

 • 2001-40-149    Controls Over Houston Receipts Left Taxpayer Cash Payments Vulnerable to Embezzlement
                  (Protection of Resources: 343 official receipts with errors.)

 • 2001-40-151    Letter Report: Write-off of Taxes Owed Resulted in Inequitable Treatment of Taxpayers
                  (Revenue Protection: $500,000,000 for 57,343 accounts.)

 September 2001

 • 2001-40-163    Spanish-Speaking Taxpayers Receive Expanded Access to Telephone Assistance

 • 2001-10-129    Opportunities Exist to Reduce the Time to Respond to Taxpayers Who Protest Examiners’
                  Findings and Request an Appeals Conference

 • 2001-10-147    Compliance With Certain Taxpayer Rights Provisions Contained in the Internal Revenue
                  Service Restructuring and Reform Act of 1998 Could Be Improved (Taxpayer Rights and
                  Entitlements: 14,375,835 taxpayers that did not receive required annual notices or penalty and
                  interest statements.)

 • 2001-30-148    Tax Law Changes Are Needed to Improve Fairness in Paying Interest on Tax Refunds (Funds
                  Put to Better Use: $13,000,000,000.) Note: Monetary benefits projected over a five-year
                  period.

 • 2001-30-159    Management Advisory Report: The Strategy for Curbing Abusive Corporate Tax Shelter Growth
                  Shows Promise but Could Be Enhanced by Performance Measures

 • 2001-40-150    Letter Report: Some Taxpayers Are Being Incorrectly Included in the Federal Payment Levy
                  Program (Revenue Protection: 38,153 for 38 accounts; Taxpayer Burden: 35 taxpayers
                  incorrectly included in the program.)

 • 2001-40-161    Letter Report: The Misclassification of Erroneous Refunds Has Caused Some Taxpayers to Be
                  Treated Unfairly and Actual Inventories to Be Understated (Taxpayer Rights and Entitlements:
                  2,465 taxpayers that may have been subjected to inappropriate collection action; Reliability of
                  Information: 5,800 erroneous refunds understated in CY 2000 inventories.)

 • 2001-20-144    Improvements Are Needed in the Management of the e-Services Project to Enable Timely
                  Progress Towards Future Goals (Reliability of Information: $1,600,000 in employee costs not
                  accurately tracked.)


                                                                               Appendix IV - Audit Report Listing   65
Audit Reports
April 1, 2001 - September 30, 2001 (continued)

  September 2001

  • 2001-20-152          Letter Report: Authoritative Guidelines and Processes Are Needed for Classifying Information
                         Technology Projects

  • 2001-30-154          The Case Processing - Examination Support Processing Function Is Timely Performing Many of
                         Its Responsibilities (Funds Put to Better Use: $63,064; Increased Revenue: $1,113 for
                         4 accounts.)

  • 2001-30-155          Management Advisory Report: The Electronic Tax Law Assistance Program Outperformed
                         Other Free Internet Web Sites in Answering Small Business and Self-Employment Tax Law
                         Questions

  • 2001-40-160          Letter Report: Controls During the Processing of the Adoption Credits Help Ensure Taxpayers
                         Receive the Correct Benefit

  • 2001-30-158          Some Individual Taxpayers Are Inappropriately Receiving Tax Credits Intended for Businesses
                         That Provide Access for Disabled Americans (Increased Revenue: $2,180,000 for
                         782 accounts.) Note: Monetary benefits projected over a two-year period.

  • 2001-30-164          The Internal Revenue Service Has an Opportunity to Relieve Considerable Taxpayer Burden
                         Involving the Estimated Tax Penalty (Taxpayer Burden: $247,800,000 value of time spent by
                         taxpayers to prepare and submit a form not required.)

  • 2001-30-167          Initial Electronic Filing of Large Partnership Returns Was Successful, but Additional Checks Are
                         Needed to Ensure the Accuracy of Information From These Returns Used in Matching
                         Programs (Increased Revenue: 204,000 information returns that would be included in the
                         program.)

  • 2001-1C-153          Report on Adequacy and Compliance of Revised Disclosure Statement, Effective
                         December 30, 2000

  • 2001-30-176          The Examination Function Developed Many Necessary Controls for Its Electronic Classification
                         System (Taxpayer Privacy and Security: 25,500,000 returns on the Midwest Automated
                         Classification System at risk.)

  • 2001-40-183          Millions of Dollars in Erroneous Education Credits Continue to Be Allowed (Increased
                         Revenue: $20,560,000 for 31,043 accounts.)

  • 2001-40-182          Letter Report: Information on the Tax Return Is Not Used to Validate Many of the Requirements
                         for the Credit for the Elderly or the Disabled Before It Is Allowed (Increased Revenue: $27,808
                         for 72 accounts.)

  • 2001-30-175          Management Advisory Report: Tax Return Filing and Examination Statistics

  • 2001-30-172          Management Advisory Report: Message Paging Could Enhance the Communication of Time-
                         Sensitive Information Throughout the Toll-Free Telephone Enterprise

  • 2001-10-157          Most Taxpayers Are Advised of Their Rights Before Signing an Agreement to Extend the
                         Assessment Statute of Limitations (Taxpayer Rights and Entitlements: 460 taxpayers not
                         advised of their rights.)

  • 2001-10-170          The National Taxpayer Advocate Provided Appropriate Training on the Associate Advocates’
                         Role and Responsibilities

  • 2001-10-174          Financial Review of Criminal Investigation’s Group I Undercover Operations (Questioned
                         Costs: $715; Reliability of Information: $1,081,850 either misstated or not supported in
                         financial reports.)




66 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
Audit Reports
April 1, 2001 - September 30, 2001 (continued)

 September 2001

 • 2001-10-180    Continuing Oversight is Needed to Ensure the Success of the Exempt Organization Imaging
                  Project

 • 2001-20-179    Uncertainties Facing the Customer Communications 2002 Project May Jeopardize Its Timely
                  Deployment

 • 2001-30-166    Management Advisory Report: Comparing the Internal Revenue Service’s Verification of
                  Income for Wage Earners and Business Taxpayers

 • 2001-30-168    Improvements in Recording Third Party Addresses From Tax Returns Will Reduce
                  Undeliverable Business Mail (Funds Put to Better Use: $98,409; Increased Revenue: $4,508;
                  Taxpayer Rights and Entitlements: $5,508 in refunds mailed to undeliverable addresses
                  926,425 accounts with incorrect third party addresses.)

 • 2001-30-169    Automated Referral System Weaknesses Have Placed Customer Service Goal Accomplishment
                  at Risk

 • 2001-40-184    More Can Be Done to Help Taxpayers Comply With Alternative Minimum Tax Provisions

 • 2001-10-188    Improvements Should Be Made to Better Control and Report Internal Revenue Service
                  Restructuring and Reform Act of 1998 Section 1203 Information (Reliability of Information:
                  191 complaints and allegations that could not be located or management information was not
                  current or consistent.)

 • 2001-30-145    Management Advisory Report: Additional Analyses of Employer’s Quarterly Federal Tax
                  Returns Suggest Possible Tax Compliance Issues

 • 2001-10-178    Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998 Section
                  1204 Has Not Yet Been Achieved (Taxpayer Rights and Entitlements: 3,623 enforcement
                  employees evaluations with potential violations concerning the use of enforcement statistics.)

 • 2001-30-165    Opportunities Exist to More Effectively Process Personal Service Corporation Income Tax
                  Returns (Increased Revenue: $78,100,000 for 10,468 accounts; Reliability of Information:
                  116,180 returns with inaccurate Personal Service Corporations’ indicators.) Note: Monetary
                  benefits projected over a five-year period.

 • 2001-30-181    Significant Efforts Have Been Made to Improve Information Reporting for Foreign Persons, But
                  Substantial Work Remains

 • 2001-40-162    Actions to Develop Goals and Standards and Upgrade the Management Information System for
                  the Innocent Spouse Program Have Not Been Fully Implemented (Taxpayer Burden:
                  66,741 taxpayer accounts affected by open Innocent Spouse claims.)

 • 2001-20-191    Management Advisory Report: Annual Assessment of the Internal Revenue Service’s
                  Information Security - Fiscal Year 2001

 • 2001-40-185    Letter Report: Substantial Earned Income Credit Is Paid to Non-Entitled Individuals Who Use
                  Not Valid for Work Social Security Numbers (Revenue Protection: $652,000,000 for
                  308,000 accounts.)

 • 2001-10-177    The Exempt Organizations Function’s Examination Workplan Can Be Improved to Increase Its
                  Effectiveness

 • 2001-10-141    Improvements Have Been Made to Eliminate Illegal Tax Protester Designations

 • 2001-10-186    Providing Incomplete Taxpayer Complaint Information Increases the Risk That Statutory
                  Reporting Requirements Are Not Met



                                                                               Appendix IV - Audit Report Listing   67
Audit Reports
April 1, 2001 - September 30, 2001 (continued)

  September 2001

  • 2001-20-171          Monitoring of Long Distance and Cellular Telephone Costs Continues To Need Improvement
                         (Protection of Resources: $1,092,200 in long distance telephone charges not reviewed.)

  • 2001-40-192          The Internal Revenue Service Successfully Processed Individual Tax Returns During the 2001
                         Filing Season (Taxpayer Rights and Entitlements: 1,808 taxpayers incorrectly denied
                         $995,864; Taxpayer Burden: 6,096 taxpayers received notices that did not contain a proper
                         explanation — 3,078,893 taxpayers that may not have received benefit of the third-party
                         authorization program.)

  • 2001-10-187          The Internal Revenue Service Needs to Improve Controls Over Computer Codes Used to
                         Accelerate Tax Enforcement Actions (Taxpayer Burden: 106,915 taxpayers incorrectly
                         identified as non-compliant; Reliability of Information: 520 taxpayer accounts contained
                         incorrect codes.)


Notes: Outcome measures are shown in non-italicized type. A taxpayer’s account may be
       impacted by multiple recommendations.
         TIGTA audit reports are available on-line at: http://www.treas.gov/tigta/audit_reports.htm




68 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                     Appendix V - Section 1203 Standards
In general, the Commissioner of IRS shall terminate the employment of any employee of IRS if
there is a final administrative or judicial determination that in the performance of official duties such
employee committed the misconduct violations outlined below. Such termination shall be a removal
for cause on charges of misconduct.
Misconduct violations include:
•    Willful failure to obtain the required approval signatures on documents authorizing the seizure of
     a taxpayer’s home, personal belongings, or business assets.

•    Providing a false statement under oath with respect to a material matter involving a taxpayer or
     taxpayer representative.

•    Violating, with respect to a taxpayer, taxpayer representative, or other employee of IRS,
     — any right under the Constitution of the United States, or
     — any civil right established under Title VI or VII of the Civil Rights Act of 1964,1 Title IX of the
       Education Amendments of 1972,2 Age Discrimination in Employment Act of 1967,3 Age
       Discrimination Act of 1975,4 Section 501 or 504 of the Rehabilitation Act of 1973,5 or Title I of
       the Americans with Disabilities Act of 1990.6

•    Falsifying or destroying documents to conceal mistakes made by any employee with respect to a
     matter involving a taxpayer or taxpayer representative.

•    Committing assault or battery on a taxpayer, taxpayer representative, or other employee of IRS,
     but only if there is a criminal conviction, or a final judgment by a court in a civil case, with respect
     to the assault or battery.

•    Violating of the Internal Revenue Code of 1986, Treasury regulations, or policies of IRS
     (including the Internal Revenue Manual) for the purpose of retaliating against, or harassing a
     taxpayer, taxpayer representative, or other employee of IRS.

•    Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the
     purpose of concealing information from a Congressional inquiry.

•    Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
     before the date prescribed therefor (including any extensions), unless such failure is due to
     reasonable cause and not to willful neglect.




1
    Pub. L. No. 88-352, 78 Stat. 241 (codified as amended in 42 U.S.C. § 2000e).
2
    20 U.S.C. §§ 1681-1688 (1994).
3
    29 U.S.C. §§ 621-634 (1994 & Supp. IV 1998).
4
    42 U.S.C. §§ 6101-6107 (1994 & Supp. IV 1998).
5
    Pub. L. No. 93-112, 87 Stat. 355 (codified as amended in 29 U.S.C. §§ 701 & 794).
6
    42 U.S.C. §§ 12111 et seq. (1994 & Supp. IV 1998).


                                                                                        Appendix V - Section 1203 Standards   69
•   Willfully understating Federal tax liability, unless such understatement is due to reasonable cause
    and not to willful neglect, and,

•   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.


In general, the Commissioner of Internal Revenue may take a personnel action other than
employment termination for the misconduct violations outlined above. The exercise of this authority
shall be at the sole discretion of the Commissioner and may not be delegated to any other officer.
The Commissioner, in his/her sole discretion, may establish a procedure which will be used to
determine whether an individual should be referred to the Commissioner for a determination by the
Commissioner. Any determination of the Commissioner in these matters may not be appealed in
any administrative or judicial proceeding.




70 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                             Appendix VI - Statutory TIGTA
                                                 Reporting Requirements
In FY 2001, TIGTA completed its third round of statutory reviews required annually by RRA 98. The
table below reflects the status and results of the FY 2001 RRA 98 statutory reviews. Thirty
statutory audit reports that dealt with the adequacy and security of IRS technology were issued.1


   Reference to          Explanation of
Statutory Coverage       the Provision             Comments/TIGTA Audit Status

Enforcement            An evaluation of the        Reference Number 2001-10-178, September 2001
Statistics             compliance of IRS
                                                   IRS has not yet achieved compliance with RRA 98 § 1204 (a) and
                       with restrictions under
                       Section 1204 of RRA 98      (b). Potential violations were identified in 16 of the 200 sampled
I.R.C.                                             enforcement employees’ performance or related supervisory
                       on the use of
§ 7803(d)(1)(A)(i)     enforcement statistics      documentation. Tax enforcement results were identified in the
                       to evaluate IRS             performance documentation of 2 sampled employees and the
                       employees.                  managers of 14 sampled employees could not substantiate their
                                                   use of the fair and equitable treatment of taxpayers as a
                                                   performance standard. Projected across the estimated
                                                   population of 45,288 enforcement employees in the continental
                                                   United States as of October 7, 2000, OA estimated that similar
                                                   potential violations could affect 3,623 enforcement employees
                                                   (+ 5.9 percent).
                                                   In addition, OA identified some procedural violations of a lack of
                                                   documentation of IRS managers’ certification of whether tax
                                                   enforcement results were used in a prohibited manner.

Restrictions on        An evaluation of IRS’       Reference Number 2001-10-116, July 2001
Directly               compliance with
                       restrictions under          As in the prior two reviews, OA could not determine whether IRS
Contacting                                         employees followed proper procedures to stop an interview if the
                       I.R.C. § 7521 on
Taxpayers              directly contacting         taxpayer requested to consult with a representative. Neither IRS
                       taxpayers who have          nor OA could readily identify cases where the taxpayer requested
I.R.C.                 indicated that they         a representative or IRS contacted the taxpayer directly and
§ 7803(d)(1)(A)(ii)    prefer their                bypassed the representative.
                       representatives be
                       contacted.

Filing of a Notice     An evaluation of IRS’       Reference
                                                    Levies Number 2001-10-127, August 2001
of Lien                compliance with
                                                   IRS has not yet achieved full compliance with the law and its own
                       required procedures           I.R.C. guidelines. A review of 167 lien notices identified 14
                       under I.R.C. § 6320         internal
I.R.C.                                               § 7803(d)(1)(A)(iv)
                                                   cases   (8 percent) with potential legal violations of taxpayers’
                       (Supp. IV 1998) upon
§ 7803(d)(1)(A)(iii)   the filing of a notice of   rights. In 4 of the cases sampled, IRS did not comply with all
                       lien.                       provisions  of the
                                                   An evaluation       law. compliance
                                                                   of IRS’   This occurred   asrequired
                                                                                          with   a result procedures
                                                                                                          of employeeunder
                                                   errors.
                                                   I.R.C § For
                                                            633010(Supp.
                                                                    cases,IVthe  notices
                                                                              1998)       were late
                                                                                     regarding       because they were not
                                                                                                 levies.
                                                   printed timely or were not mailed timely. OA estimates that similar
                                                   Reference   Number
                                                   taxpayer rights   could2001-10-113,    July 2001affected in 11,507 lien
                                                                             have been potentially
                                                   notifications from January 1 to August 31, 2000.
                                                   IRS complied with the law by notifying taxpayers of its intent to
                                                   levy, and of OA
                                                   In addition, theiridentified
                                                                       appeal rights,  at least
                                                                                58 cases          30 daysinbefore
                                                                                            (35 percent)     whichissuing
                                                                                                                   IRS
                                                   levies. However,
                                                   employees    did notRevenue    Officers
                                                                         follow internal    did not always
                                                                                          guidelines.  Four obtain
                                                                                                             cases proof
                                                                                                                    involved
                                                   they
                                                   both timely  mailed
                                                         legal and       the notices
                                                                    internal          viaviolations.
                                                                              guideline   certified mail, return receipt
                                                   requested. In addition, they did not always follow internal

                                                                 Appendix VI - Statutory TIGTA Reporting Requirements     71
   Reference to                Explanation of
Statutory Coverage             the Provision          Comments/TIGTA Audit Status


 Levies                     An evaluation of IRS’      Reference Number 2001-10-113, July 2001
                            compliance with
                            required procedures        IRS complied with the law by notifying taxpayers of its intent to
 I.R.C.                     under I.R.C § 6330         levy, and of their appeal rights, at least 30 days before issuing
 § 7803(d)(1)(A)(iv)        (Supp. IV 1998)            levies. However, Revenue Officers did not always obtain proof
                            regarding levies.          they timely mailed the notices via certified mail, return receipt
                                                       requested. In addition, they did not always follow internal
                                                       guidelines requiring them to update taxpayer accounts on the
                                                       primary IRS computer system.


 Collection Due             An evaluation of IRS’      Reference Number 2001-10-068, May 2001
 Process                    compliance with
                            required procedures        IRS generally complied with the requirements of the law and
                            under I.R.C. §§ 6320       ensured taxpayers’ appeal rights were protected for the 66
 I.R.C.                     and 6330 (Supp. IV         collection due process cases reviewed during this audit.
 § 7803(d)(1)(A)(iii)       1998) regarding the        While IRS complied with the law when providing taxpayers with
 and (iv)                   taxpayers’ rights to       their appeal rights, in the 66 cases reviewed, approximately
                            appeal lien or levy        14 percent (9 of 66) of the determination letters provided to
                            actions.                   taxpayers did not completely outline all provisions of the law
                                                       considered in the decisions. The Code of Federal Regulations
                                                       (CFR), 26 CFR 301.6330-1T(e)(Q-E7), and Appeals procedures
                                                       state that the letters must address all issues raised by the
                                                       taxpayers and whether IRS followed all the applicable rules and
                                                       regulations and balanced tax collection with the taxpayers’
                                                       legitimate concerns. In addition, Appeals Officers did not always
                                                       timely contact taxpayers after cases were assigned and case files
                                                       had periods of unexplained inactivity.


 Seizures                   An evaluation of IRS’      Reference Number 2001-10-061, May 2001
                            compliance with
                            required procedures        Based on TIGTA’s review of all 31 seizures performed during
 I.R.C.                                                January 1 through May 31, 2000, as identified from IRS records,
                            under Subchapter D of
 § 7803(d)(1)(A)(iv)        Chapter 64 for seizure     OA determined that actions taken by IRS were in accordance
                            of property for            with 26 U.S.C. §§ 6330 through 6344 and IRS’ internal guidelines
                            collection of taxes.       for all cases.
                                                       IRS’ total compliance with legal provisions and internal guidelines
                                                       is attributed to management’s continued emphasis on following
                                                       the seizure guidelines, to management’s involvement in the
                                                       review and approval process, and to legal guidelines which have
                                                       remained relatively unchanged since July 22, 1998.




72 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
   Reference to         Explanation of
Statutory Coverage      the Provision           Comments/TIGTA Audit Status

Taxpayer              An evaluation of IRS’     Reference Number 2001-10-141, September 2001
Designations -        compliance with
                      restrictions under        In general, IRS is in compliance with the prohibition on using the
Illegal Tax           § 3707 of RRA 98 on       Illegal Tax Protester (ITP) designation or a similar designation.
Protester             designation of            Former ITP codes were not reintroduced on IRS’ Masterfile after
Designation and       taxpayers.                the effective date of the law and were not reassigned to a similar
                                                ITP designation. Employees made very few references to
Nonfiler                                        taxpayers as ITPs in taxpayer case files. IRS removed ITP codes
Designation                                     and has systemic controls to prevent the use of these codes on
                                                one computer case inventory system but still needs to take
I.R.C.                                          similar action on two other computer case inventory systems.
§ 7803(d)(1)(A)(v)                              IRS also needs to continue its efforts to remove ITP references
                                                from the Internal Revenue Manual and other publications. IRS
                                                was in the process of taking corrective actions to address these
                                                issues at the time of the review, based on recommendations from
                                                a prior TIGTA report.



Disclosure of         Review and certify        Reference Number 2001-10-126, August 2001
Collection            whether or not IRS is
                      complying with            This is the third year that OA could not determine whether IRS is
Activities With       I.R.C. § 6103(e)(8) to    complying with the statutory requirements for responding to
Respect to Joint      disclose information to   written requests from joint filers because both OA and IRS are
Returns               an individual filing a    still unable to readily identify joint filer requests received
                      joint return on           nationwide. IRS management has decided not to develop a new
                      collection activity       management control process to track joint filer requests.
I.R.C.
                      involving the other
§ 7803(d)(1)(B)       individual filing the
                      return.
I.R.C. § 6103(e)(8)


Taxpayer              Requires the TIGTA to     Reference Number 2001-10-186, September 2001
                      include in each TIGTA
Complaints                                      IRS management developed the Integrated Compliant Tracking
                      Semiannual Report to
                      the Congress the          and Reporting System (ICTRS) as an interim system to
I.R.C.                number of taxpayer        consolidate data from the Automated Labor and Employee
§ 7803(d)(2)(A)       complaints received       Relations Tracking System (ALERTS) and from the Executive
                      and the number of         Correspondence Management System (ECMS). However,
                      employee misconduct       because the ALERTS and ECMS do not encompass all taxpayer
                      and taxpayer abuse        complaints received by IRS, there is a risk that incomplete data
                      allegations received      will be provided for the TIGTA Semiannual Report to the
                      by IRS or TIGTA from      Congress. Complaint information exists on computer systems
                      taxpayers, IRS            that are not included in the ICTRS. Decisions to not include
                      employees and other       complaints from other systems were based on TIGTA and IRS
                      sources.                  management’s interpretation of the reporting requirements, which
                                                do not specify what type of taxpayer complaints need to be
                                                reported.




                                                             Appendix VI - Statutory TIGTA Reporting Requirements   73
   Reference to                Explanation of
Statutory Coverage             the Provision          Comments/TIGTA Audit Status

 Administrative or          Include information       Reference Number 2001-10-081, July 2001
 Civil Actions With         regarding any
                            administrative or civil   Based on a review of information recorded as potential Fair Debt
 Respect to the             actions with respect to   Collection Practices Act (FDCPA) violations on IRS’ computer
 Fair Debt                  violations of the fair    systems, OA did not identify any violations that resulted in IRS
 Collection                 debt collection           taking an administrative action against an employee for the
                            provision of              period April 1 through December 31, 2000. In addition, IRS did
 Practices Act of                                     not have any closed civil actions involving FDCPA violations for
                            I.R.C. § 6304,
 1996                       including a summary       this same period. Accordingly, IRS did not pay any money to
                            of such actions, and      taxpayers for civil actions resulting from FDCPA violations.
 I.R.C.                     any resulting
 § 7803(d)(1)(G)            judgments or awards
                            granted.
 I.R.C. § 6304
 § 3466 of RRA 98


 Denial of                  Include information       Reference Number 2001-10-112, July 2001
 Requests for               regarding improper
                            denial of requests for    IRS improperly withheld information from requesters in 10.7 percent
 Information                information from IRS,     of the FOIA and PA requests, and 7 percent of the
                            based on a                I.R.C. § 6103 requests reviewed. Additionally, IRS did not
 I.R.C.                     statistically valid       respond timely to requesters in 20.1 percent of the FOIA/PA
 § 7803(d)(1)(F)            sample of the total       cases included in OA’s sample of requests that was denied or
                            number of                 where IRS replied that responsive records was not available.
                            determinations made       OA’s statistically valid samples were taken from cases closed
 I.R.C.                                               during the period October 1, 1999, through July 31, 2000.
                            by IRS to deny written
 § 7803(d)(3)(A)            requests to disclose
                            information to            OA estimated that information was improperly withheld from
                            taxpayers on the basis    responses to 615 FOIA and PA requests and 733 I.R.C. § 6103
                            of                        requests during our sample period. OA also estimated that
                            I.R.C. § 6103 or          responses to 1,153 FOIA and PA requests were not processed
                            5 U.S.C. § 552(b)(7).     timely during the same period.



 Extensions of the          Include information       Reference Number 2001-10-157,
 Statute of                 regarding extensions      September 2001
                            of the statute of
 Limitations for            limitations for           In most of the tax modules (169 of 180) reviewed, examiners
 Assessment of              assessment of tax         properly advised taxpayers of their rights to refuse or restrict the
                                                      scope of the statute extension. However, in the remaining 11 of
 Tax                        under I.R.C. § 6501
                            and the provision of      180 modules, the examination case files did not contain a record
                            notice to taxpayers       that taxpayers had been advised of their rights. An estimated
 I.R.C.                                               460 taxpayer accounts nationwide do not contain adequate
                            regarding the right to
 § 7803(d)(1)(C)            refuse or limit the       documentation of advice of rights. Associating documentation of
                            extension to particular   advisement of rights with the statute extension form in
 I.R.C. § 6501              issues or a particular    examination case files will help IRS management to confirm that
                            period of time.           taxpayers have been properly advised of their rights before IRS
                                                      approves and processes statute extensions.




74 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
   Reference to        Explanation of
Statutory Coverage     the Provision      Comments/TIGTA Audit Status

Adequacy and         Evaluation of the    The consolidated status of IRS’ adequacy and security of its
                     adequacy and         technology is highlighted on page 5.
Security of the
                     security of the
Technology of the    technology of IRS.
IRS                                       Security Reviews:

I.R.C.                                    Reference No. 2001-20-016, November 2000
§ 7803(d)(1)(D)                           Reference No. 2001-20-017, November 2000
                                          Reference No. 2001-20-020, November 2000
                                          Reference No. 2001-20-034, December 2000
                                          Reference No. 2001-20-036, January 2001
                                          Reference No. 2001-20-065, April 2001
                                          Reference No. 2001-20-072, April 2001
                                          Reference No. 2001-20-092, June 2001
                                          Reference No. 2001-20-101, June 2001
                                          Reference No. 2001-20-108, July 2001
                                          Reference No. 2001-20-111, July 2001
                                          Reference No. 2001-20-191, September 2001


                                          Information Technology:
                                          Reference No. 2001-20-004, October 2000
                                          Reference No. 2001-20-015, November 2000
                                          Reference No. 2001-20-022, December 2000
                                          Reference No. 2001-20-039, February 2001
                                          Reference No. 2001-20-043, February 2001
                                          Reference No. 2001-20-045, February 2001
                                          Reference No. 2001-20-046, February 2001
                                          Reference No. 2001-20-055, March 2001
                                          Reference No. 2001-20-062, March 2001
                                          Reference No. 2001-20-083, May 2001
                                          Reference No. 2001-20-109, July 2001
                                          Reference No. 2001-20-140, August 2001
                                          Reference No. 2001-20-143, August 2001
                                          Reference No. 2001-20-146, August 2001
                                          Reference No. 2001-20-144, September 2001
                                          Reference No. 2001-20-152, September 2001
                                          Reference No. 2001-20-171, September 2001
                                          Reference No. 2001-20-179, September 2001




                                                       Appendix VI - Statutory TIGTA Reporting Requirements   75
                  Appendix VII - Government Performance
                                   and Results Act Audits
The Government Performance and Results Act of 1993 is intended to increase agency
accountability and improve the quality and delivery of government services. GPRA holds Federal
agencies accountable for program results by emphasizing goal setting, customer satisfaction, and
results measurement. Federal agencies are required to prepare multi-year strategic plans, annual
performance plans, and annual program performance reports. In FY 1999, Federal agencies were
required to submit to the President and Congress annual performance plans that set annual goals
with measurable target levels of performance. Beginning with FY 2000, Federal agencies were
required to report on their successes in achieving the goals established in the prior year’s
performance plan in an annual program performance report.
The following reviews were performed as part of TIGTA’s strategy to assess IRS’ compliance with
GPRA.



   Reference
    Number        Report Title and Recommendation Summary                         Management Response


2001-30-131       Better GPRA Quantity Indicators Are Needed for Toll-            IRS agreed to make some
                  Free Telephone Service                                          changes to its GPRA quantity
                                                                                  indicators. However, IRS
                  Objective: To evaluate the effectiveness of IRS’ performance    neither designated a
                  plans in communicating progress towards meeting strategic       responsible management
                  goals and objectives.                                           official for carrying out these
                  Recommendations: To better comply with the GPRA, IRS            actions, nor established target
                  should develop GPRA quantity indicators for the toll-free       completion dates in its
                  telephone system that better reflect the taxpayer experience    response to the draft report.
                  by including: a more realistic time standard for a government   While IRS agreed with Office
                  organization during which calls should be answered,             of Audit’s recommendation to
                  separate statistics for automated calls and those answered      establish a time standard for
                  by Customer Service Representatives, and a cost-per-call        answering calls, it disagreed
                  measure. In addition, these indicators should be confined to    with the portion of that
                  the three main toll-free telephone lines which taxpayers use    recommendation relating to
                  for account information and tax law questions.                  making the standard more
                                                                                  reflective of a government
                                                                                  organization than private
                                                                                  industry. IRS agreed to revise
                                                                                  its indicators to include only
                                                                                  the three main toll-free
                                                                                  telephone lines. However, IRS
                                                                                  did not address whether it
                                                                                  would develop a GPRA
                                                                                  service-level indicator for
                                                                                  automated calls or a cost-per-
                                                                                  call indicator.




                                                                                      Appendix VII - GPRA Audits 77
    Reference
     Number             Report Title and Recommendation Summary                          Management Response


 2001-10-085            Management Advisory Report: The Internal Service’s               IRS management generally
                        Implementation of the GPRA during Fiscal Year 2000               agreed with the
                                                                                         recommendations contained in
                        Objective: To consolidate the results of eight TIGTA audits of   the eight reports.
                        IRS’ implementation of GPRA during FY 2000.
                                                                                         This report is highlighted on
                        Recommendations: IRS management should consider                  page 10.
                        centralizing GPRA oversight, better administer the Customer
                        Satisfaction Surveys and qualify the data as needed, and
                        improve the Annual Program Performance Report process.




78 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                                       Appendix VIII - Criminal
                                                          Investigation Audits
  Reference
   Number     Report Title and Recommendation Summary                            Management Response



2001-10-100   The Criminal Investigation Function Needs to Improve               Criminal Investigation
              Its Oversight During Implementation of the Webster                 management agreed with the
              Report Recommendations                                             recommendations and is taking
                                                                                 appropriate corrective action.
              Objective: To determine if the CI function implemented the
              25 basic recommendations contained in the “Executive
              Summary” of the Webster Report.
              Recommendations: The Chief, CI, should ensure that
              appropriate processes are developed to effectively monitor
              the successful completion of the corrective actions initiated
              in response to theWebster Report. Also, require periodic
              reviews to ensure the consistent preparation of special
              agents’ search warrant and risk assessment documentation.
              These reviews should ensure that appropriate
              documentation is maintained in the investigative
              administrative files.


2001-10-174   Financial Review of Criminal Investigation’s Group I               Criminal Investigation
              Undercover Operations                                              management agreed with the
                                                                                 recommendations and is taking
              Objective: To determine whether the financial records fairly       appropriate corrective action.
              present the results of the operation.
              Recommendations: The Chief, CI, should issue guidance
              regarding the handling of income and expenses for churning
              purposes and reporting expenditures of applicable
              operations to the Congress and ensure that guidance issued
              to account for funds used in undercover operations promotes
              accuracy, uniformity, and consistency in accounting for
              undercover operations.


2001-10-098   Review of the Effectiveness of Criminal Investigation’s            Criminal Investigation
              Strategic Planning Process                                         management agreed with the
                                                                                 recommendations and is taking
              Objective: Assess the CI function’s ability to properly refocus    appropriate corrective action.
              its resources into legal source tax-related areas.
                                                                                 This report is highlighted on
              Recommendations: The CI function should develop and                page 10.
              communicate a detailed compliance strategy that will ensure
              resources are allocated to investigations involving legal
              source tax violations. The CI function should also establish
              an effective process to ensure that management adequately
              assess the progress of program initiatives, and develop a
              methodology to determine where resources should be
              allocated.




                                                                     Appendix VIII - Criminal Investigation Audits   79
                       Appendix IX — Acronyms
ALERTS   Automated Labor and Employee Relations
ALS      Automated Lien System
APPR     Annual Program Performance Report
BSA      Bank Secrecy Act
CFR      Code of Federal Regulation
CI       IRS Criminal Investigation
CIAO     Chief Infrastructure Assurance Officer
CIO      Chief Information Officer
CMD      Complaint Management Division
CPA      Certified Public Accountant
CSED     Collection Statue Expiration Date
CY       Calendar Year

ECMS     Executive Correspondence Management System
EFDS     Electronic Fraud Detection System
EINS     Employer Identification Number
EO       IRS Exempt Organization
ETLA     Electronic Tax Law Assistance Program
FBI      Federal Bureau of Investigation
FDCPA    Fair Debt Collection Practices Act
FCC      Foreign Controlled Corporations
FFMIA    Federal Financial Management Improvement Act of 1996
FSL      Forensic Science Laboratory
FY       Fiscal Year
GPRA     Government Performance and Results Act of 1993

HUD      Department of Housing and Urban Development
IFASP    International Field Assistance Specialization Program
ICTRS    Integrated Complaint Tracking and Reporting System
IG       Inspector General
I.R.C.   Internal Revenue Code


                                                  Appendix IX -Acronyms   81
         IRS                                  Internal Revenue Service
         ITP                                  llegal Tax Protestor
         JOC                                  Joint Operations Center
         LMSB                                 IRS Large and Mid-Size Business Division
         MACS                                 Midwest Automated Compliance System
         MIS                                  Management Information System

         OA                                   Office of Audit
         OI                                   Office of Investigations
         OIC                                  Offer in Compromise
         PBA                                  Principal Business Activity
         PMO                                  Program Management Office
         PSMS                                 Practitioner Secure Messaging System
         RPS                                  Revenue Protection Strategy
         RRA 98                               IRS Restructuring and Reform Act of 1998
         SBA                                  Small Business Administration
         SB/SE                                IRS Small Business/Self-Employed Division

         NAICS                                North American Industry Classification System
         SED                                  Strategic Enforcement Division
         SFR                                  Substitute for Return
         SIC                                  Standard Industrial Classification
         SIID                                 Special Inquiries and Inspection Division
         SSN                                  Social Security number
         TE/GE                                IRS Tax Exempt and Government Entities Division
         TIGTA                                Treasury Inspector General for Tax Administration
         TIN                                  Taxpayer Identification Number
         Treasury                             Department of Treasury
         TY                                   Tax Year
         UNAX                                 Unauthorized Access to Taxpayer Accounts
         U.S.                                 United States
         U.S.C.                               United States Code



82 TIGTA’s FY 2001 Semiannual Report to Congress - September 30, 2001
                                                                                                         Inspector General
                                                                                                              for Tax
                                                                                                           Administration


                                                                                                Chief Counsel to              Director
                                                                                                 the Inspector               Strategic
                                                                                                    General                 Development




                                                                                                                                               Assistant      Assistant Insector
                                                               Deputy Inspector                                      Deputy Inspector     Inspector General      General for
                                                               General for Audit                                        General for         for Information     Management
                                                                                                                      Investigations          Technology          Services




                                                Assistant IG for Audit     Assistant IG for Audit
                                               Headquarters Operations                                   Assistant IG for        Assistant IG for
                                                                            Small Business &              Investigations          Investigations
                                               & Exempt Organizations      Corporate Programs
                                                     Programs




                                                Assistant IG for Audit     Assistant IG for Audit        Assistant IG for
                                                Information Systems         Wage & Investment             Investigations
                                                     Programs               Income Programs




Appendix X - TIGTA’s Organizational Chart 83
                                                                                                                                                                                   Appendix X - Organizational Chart
     Call our toll-free hotline to report fraud, waste or abuse


            1-800-366-4484
                            or write to:

Treasury Inspector General for Tax Administration
                  P.O. Box 589
              Ben Franklin Station
          Washington, D.C. 20044-0589

   Information is confidential and you may remain anonymous




      For Tax Problem Assistance
   Call the IRS Taxpayer Advocate at:
             1-877-777-4778
DEPARTMENT OF THE TREASURY

Office of the Inspector General for Tax Administration
1125 15th Street, NW, Room 700A
Washington, D.C. 20005
